<html>
<title> - SCHOOL VIOLENCE: WHAT IS BEING DONE TO COMBAT SCHOOL VIOLENCE? WHAT SHOULD BE DONE?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




  SCHOOL VIOLENCE: WHAT IS BEING DONE TO COMBAT SCHOOL VIOLENCE? WHAT 
                            SHOULD BE DONE?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 20, 1999

                               __________

                           Serial No. 106-111

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform
                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
63-843 CC                   WASHINGTON : 2000





                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                Sharon Pinkerton, Deputy Staff Director
                   Steve Dillingham, Special Counsel
                          Amy Davenport, Clerk
                    Cherri Branson, Minority Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 20, 1999.....................................     1
Statement of:
    Chavez, Nelba, Administrator, Substance Abuse and Mental 
      Health Services Administration, U.S. Department of Health 
      and Human Services; and William Modzeleski, Director, Safe 
      and Drug Free Schools Program, Department of Education.....    10
    Condon, Charlie, attorney general, State of South Carolina; 
      Gary L. Walker, vice president, National District Attorneys 
      Association; and Reuben Greenberg, police chief, 
      Charleston, SC.............................................    68
    Dwyer, Kevin, president elect, National Association of School 
      Psychologists; and James Baker, executive director, 
      Institute for Legislative Action, National Rifle 
      Association................................................   150
    Gallagher, Jan, president elect, American School Counselor 
      Association; Bill Hall, superintendent, Volusia County 
      Schools, Florida; Gary M. Fields, superintendent, Zion-
      Benton Township High School, Illinois; Clarence Cain, 
      teacher, Crisis Resource, Maury Elementary, Alexandria, VA; 
      Anthony Snead, officer, Brag Corps, George Mason Elementary 
      School; and Jeffrey Schurott, officer, Brag Corps, George 
      Mason Elementary School....................................   112
    Sherman, Lawrence, chair, Department of Criminology and 
      Criminal Justice, University of Maryland...................    99
Letters, statements, et cetera, submitted for the record by:
    Baker, James, executive director, Institute for Legislative 
      Action, National Rifle Association:
        Information concerning salaries..........................   206
        NRA's education and training programs....................   202
        Prepared statement of....................................   191
    Cain, Clarence, teacher, Crisis Resource, Maury Elementary, 
      Alexandria, VA, prepared statement of......................   142
    Chavez, Nelba, Administrator, Substance Abuse and Mental 
      Health Services Administration, U.S. Department of Health 
      and Human Services:
        Information concerning allocation of funds...............    44
        Information concerning FTEs..............................    61
        Organizational chart.....................................    63
        Prepared statement of....................................    13
    Condon, Charlie, attorney general, State of South Carolina, 
      prepared statement of......................................    71
    Dwyer, Kevin, president elect, National Association of School 
      Psychologists, prepared statement of.......................   154
    Fields, Gary M., superintendent, Zion-Benton Township High 
      School, Illinois, prepared statement of....................   133
    Gallagher, Jan, president elect, American School Counselor 
      Association, prepared statement of.........................   115
    Greenberg, Reuben, police chief, Charleston, SC, prepared 
      statement of...............................................    91
    Hall, Bill, superintendent, Volusia County Schools, Florida, 
      prepared statement of......................................   126
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     8
    Modzeleski, William, Director, Safe and Drug Free Schools 
      Program, Department of Education:
        Information concerning grants............................    48
        Prepared statement of....................................    32
    Sherman, Lawrence, chair, Department of Criminology and 
      Criminal Justice, University of Maryland, prepared 
      statement of...............................................   101
    Walker, Gary L., vice president, National District Attorneys 
      Association, prepared statement of.........................    77

 
  SCHOOL VIOLENCE: WHAT IS BEING DONE TO COMBAT SCHOOL VIOLENCE? WHAT 
                            SHOULD BE DONE?

                              ----------                              


                         THURSDAY, MAY 20, 1999

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:13 a.m., in 
room 2154, Rayburn House Office Building, Hon. John L. Mica 
(chairman of the subcommittee) presiding.
    Present: Representatives Mica, Barr, Souder, Hutchinson, 
Ose, Sanford, Mink, Towns, Cummings, Kucinich, and Tierney.
    Staff present: Sharon Pinkerton, deputy staff director; 
Steve Dillingham, special counsel; Amy Davenport, clerk; Cherri 
Branson, minority counsel, and Ellen Rayner, minority chief 
clerk.
    Mr. Mica. Good morning. I would like to call this meeting 
of the House Subcommittee on Criminal Justice, Drug Policy, and 
Human Resources to order.
    The topic of our hearing this morning is ``School Violence: 
What is Being Done to Combat School Violence? What Should be 
Done?''
    I am going to give an opening statement first, as an order 
of procedure. Then we will hear from the ranking member and 
other members on the topic before us. Finally, we will hear 
from four panels of witnesses.
    I actually wrote this opening statement before this 
morning's news. I said in my opening sentence, ``School 
violence, a recurring problem, has dominated the news in recent 
weeks,'' and maybe now I should edit it to say ``School 
violence, a recurring problem dominates the news even today 
with yet another tragic act of violence in Atlanta, GA.'' As we 
begin the hearing this morning, our thoughts and prayers are 
with that community, and those affected by this senseless 
violence.
    While student deaths receive the most media attention, the 
Department of Justice Bureau of Justice statistics tells us 
that thousands of violent crimes occur everyday in, and near 
our schools.
    In 1996, approximately 225,000 non-fatal, serious crimes 
occurred at schools, and about 671,000 away from schools. The 
tragic events at Columbine High School in Littleton, CO and its 
aftermath have riveted our national attention on this pressing 
and perplexing issue. Needless acts of violence are always 
reprehensible, but vicious and multiple killings in our schools 
that take the lives of our innocent children are among the most 
tragic and heartwrenching events imaginable. I am thankful that 
my children have completed their high school education without 
having experienced such violence.
    School violence at all levels is an issue that Congress has 
a responsibility to address. We are obligated to determine what 
more can be done to protect children of all ages, particularly 
from acts of violence associated with our schools.
    Our subcommittee today is exercising its oversight 
responsibility over the Department of Justice, the Department 
of Health and Human Services, and the Department of Education. 
I don't think there is another subcommittee in Congress that 
has such broad authority, so our role is very important as it 
covers many of these Federal agencies that deal with the 
problems of violence in our education system.
    Every member of this panel is committed to ensuring that 
our Federal, State, and local officials and groups are working 
together to confront a national problem. Clearly, those on the 
front line in preventing youth violence in our schools and 
communities have valuable experiences and insight as to what is 
being done and what should be done to combat school violence. 
My colleague and the ranking member of this subcommittee, the 
gentlewoman from Hawaii, Mrs. Mink, has joined me in calling 
for a hearing on this critical issue. She was one of those who 
originally called for Congress' investigation and a review of 
what is going on and I commend her for that.
    We have included a number of panelists here today at both 
the request of the minority and the majority because we realize 
that combating school crime and identifying effective 
preventative measures to lessen violence in our schools is not 
a partisan issue. I do recognize, however, that members and 
those testifying here today may have different opinions 
regarding how best to accomplish the shared goal of preventing 
school violence, and we look forward to learning more about 
these ideas and opinions. I am especially pleased that we have 
many representatives of our State and local schools, law 
enforcement, and prosecution communities who are involved with 
these very serious issues every day.
    Today, our Federal Government has a number of Federal 
programs and agencies that spend hundreds of millions of 
taxpayer dollars to address the problem of school violence. It 
is an especially important matter for this subcommittee that 
our Federal programs provide the targeted and effective 
assistance that is needed by our States, our cities, and our 
local communities and schools.
    We will learn, today, that the Department of Health and 
Human Resources has vast resources and personnel dedicated to 
our Nation's mental health needs. The Substance Abuse and 
Mental Administration is a component of HHS and is responsible 
for providing leadership and assistance to States and our 
communities in meeting the mental health needs of our Nation. 
It is clear that mental health aspects of school violence are 
particularly significant. What is it that leads a student to 
commit or even consider such heinous acts? And if we know some 
of the psychological factors associated with these violent 
behaviors, what are we doing about it? Do our Federal programs 
accomplish their goals efficiently and effectively? Is the 
Federal Government helping or hurting with these programs and 
policies? Every dollar dedicated to this very significant and 
terrible problem must be put to maximum use and problems and 
inefficiencies must be remedied.
    Another Federal department over which we have oversight 
responsibility is the Department of Education. A component of 
the Department, which has direct responsibility for combating 
school violence through educational initiatives, is the Safe 
and Drug Free Schools Program. We must not forget the strong 
relationship between drug abuse and violent behavior, whether 
or not drug abuse is directly linked with the most recent 
tragic events or not. The prevention of drug abuse goes hand in 
hand with crime prevention and the reinforcement of lawful and 
responsible behaviors. Are Federal agencies, particularly the 
Safe and Drug Free Schools Program, maximizing available 
resources in these efforts?
    Many questions have been raised in the past about program 
effectiveness and accountability. Is there evidence that 
promised improvements have been made? If not, then why? This 
program has a substantial budget of more than $566 million this 
year alone--over half a billion--and has spent an estimated $6 
billion since 1986. Has this been a wise investment?
    We will hear about some of the changes that have been 
attempted as well as new programs that are being instituted, 
such as the Safe Schools, Healthy Students initiative. Do these 
initiatives represent the best knowledge and employ the very 
best practices? Are they efficient and effective? Are they 
sufficiently targeting the most critical needs? Do States and 
local communities have ample discretion to tailor the resources 
to their particular needs?
    Another issue that we will discuss today is an issue many 
people single out as being a major concern, which is violence 
in our schools from weapons. Our role today as an oversight 
subcommittee for the Department of Justice requires us to also 
ask a key question: Is the Justice Department vigorously 
enforcing the firearm laws we have had on the books for the 
last 6 years? Why is it that Congress passed a law in 1994 
criminalizing gun possession by juveniles, and there have been 
only 13 cases prosecuted in the last 2 years? There have been 
11 prosecutions for illegal transfer of guns to juveniles--that 
is only 11 prosecutions. This seems to me to be a serious lapse 
in the Department of Justice's commitment to this issue.
    I am particularly concerned that our request to have a 
representative of the Department of Justice come and testify 
about what they are doing has been turned down, but I have 
talked to the ranking member. We are not going to subpoena that 
witness today, but we will give the Department of Justice an 
opportunity in the near future to come and respond to some of 
these questions.
    What we may not consider today is a more fundamental 
question: Are guns, bombs, violent movies and other such 
influences causing the problem or has our system of values, 
morals, faith, family structure and failed role models brought 
about these problems? Hopefully, this hearing will provide us 
with insight as to what the Federal Government is doing to 
address the problems of Columbine, Jonesboro, Paducah, and, 
today, Atlanta.
    I want to take this opportunity to thank our panelists from 
various States and communities and schools who will share their 
experience and insight with our subcommittee. I know that the 
introduction into our schools of sworn human resource officers, 
skilled counselors, and alternative learning approaches for at-
risk students can play a very important and significant role in 
a school's ability to combat and prevent aberrant behaviors and 
acts of violence.
    I also realize that sometimes too much is expected of our 
teachers and schools and that parents, families and churches 
are primarily responsible for instilling the values we want our 
children to share. I hope that the approaches that we are 
employing foster and supplement our families and religious 
institutions rather than conflict with them.
    Specifically, I would like this hearing to examine the 
following issues: first, are our Federal programs operating 
efficiently and effectively in combating school violence and 
are needed improvements being made? Second, what promising 
approaches are being pursued in our States and communities and 
schools? What, if anything, should Congress do to facilitate or 
reinforce these efforts? Third, what is the current state of 
our knowledge of this complex and often perplexing issue, and 
what is being done to learn more about factors that contribute 
to school violence? And I have added a fourth thing that I 
would like to address either in this subcommittee hearing or in 
additional hearings that we will conduct. Are we able to keep 
the law up to date with technology? I added this because I 
received a copy of this from one of my staffers who does work 
with the Internet and handles all of our computer operations, 
and he pulled up this anarchist's cookbook, and it is pages and 
pages of instruction about how to make a bomb or explosive 
devices. And, so my fourth question today, is has the law kept 
up with technology, and what do we need to do in that regard?
    So, with these and other questions, again, on a morning 
when we have experienced another tragedy of school violence, I 
am pleased to yield to our ranking member, Mrs. Mink, the 
gentlelady from Hawaii, for her opening statement.
    Mrs. Mink. I thank the chairman for yielding me time and 
for agreeing to call the hearing.
    This is a topic that probably, if we had convened before 
Littleton, may not have brought the attention of so many 
individuals. However, after the tragic occurrences in Colorado 
and again this morning being reminded that it is a continuing 
crisis erupting in our schools, it is extremely timely that 
this committee, having oversight responsibility, take a serious 
look at what the Federal Government can do, what it is doing or 
could do better, or what it should not be doing? And I think it 
is very appropriate that we begin today with an examination of 
this very, very serious topic.
    I do not believe that it is for members of this 
subcommittee or even of the full committee or of Congress to 
try to come up with specific ways in which we can assure the 
country that these events are not going to happen. I think that 
is beyond our capacity and beyond the capacity, really, of 
school superintendents or principals or community leaders. To 
look around for blame and leveling accusations of failures or 
inaction by officials that have responsibility is not the 
mission of this oversight committee.
    Our search today in calling this vast array of witnesses is 
to sincerely make an attempt to examine what, in these 
individuals' perspectives, who are all experts--experienced 
leaders who work in the field of education or in the field of 
research in these matters having to do with violence in our 
society--what they think the role of the Congress and the 
Federal Government might be.
    I think this is a State and local responsibility, something 
that the schools, themselves, have to deal with, and I don't--
as one member of this subcommittee and of the Congress--propose 
in any way to issue more mandates or more laws that will 
dictate policy. I think it is something that the individual 
schools and local districts have to come up with. But, at the 
same time, I do believe the Federal Government has a unique 
responsibility to examine what is there in terms of assistance 
on the State and local level and what further things the 
Federal Government might do. It is in this area that I think we 
have a profound responsibility to make an honest search to see 
that these incidents occurring in our schools do not happen.
    Of course, if we took guns away and made sure that guns 
never had entry into our schools, that would eliminate this 
type of violence, but I think it goes far beyond just doing a 
physical examination for guns. It goes to the whole psychology 
of our youth and what we can do as responsible leaders and 
legislators to try to help our youngsters deal with their 
internal conflicts, their psychological problems, their anger, 
their hate, or whatever it is that motivates them to this type 
of criminal behavior.
    I would like to take, also, this opportunity to research 
the programs that Congress has already enacted and funded to 
see whether they are working, to see whether we can expand 
them, whether we should move in other directions. So, our 
oversight responsibilities are very expansive, and I hope that 
we will pursue this inquiry with the diligence which is 
required.
    Given the announcement of the shootings in Atlanta, we have 
a huge impending crisis, and I wondered out loud as I heard 
this story come over the television this morning, if it would 
not be wise for our schools to shut down the remainder of the 
school year--there is only a couple of weeks, in fact, in some 
places, days left--in order to calm the environment? I have 
absolutely no doubt that young people simulate what they see 
and hear, and no one can direct my thinking otherwise. That is 
the power of television and the power of the gruesome stories 
that we see nightly. So, perhaps, to calm the situation and 
make sure this thing doesn't repeat itself in the next several 
days and weeks and before the end of the school year, this 
might be a serious alternative that could be considered.
    Undoubtedly, the Federal Government and the Congress has a 
leadership responsibility, and we are here today as a 
subcommittee to begin the process of determining what it is 
that we should, not as mandates but as leaders, to try to pave 
the way toward solutions that lead to prevention, which is my 
primary objective. Is it school counselors? What sort of things 
can we do to improve the ability of school administrators to 
deal with the problem and to try to counsel the parents and the 
community and the students affected to lead them away from the 
temptation of violence of this sort?
    So, I commend the Chair of this subcommittee for taking the 
lead and embarking upon this very, very important and crucial 
examination of school violence, and I hope that we will 
conclude these meetings with some very meaningful suggestions 
that we can make to the Government, to the Congress, itself, to 
appropriators who fund the programs that we determine to be 
important and helpful.
    So, thank you, Mr. Chairman.
    Mr. Mica. I thank the gentlelady and yield now to the 
gentleman from Arkansas, Mr. Hutchinson, for an opening 
statement.
    Mr. Hutchinson. Mr. Chairman and ranking member, I am just 
delighted that you are conducting this hearing. I think it is 
extraordinarily important. We, in Arkansas, certainly 
understand the tragedy of school violence with the shooting 
that occurred in Jonesboro. It is an issue that concerns our 
Nation, each of our States, and, as a parent of teenagers, it 
certainly reaches deep into the heart of every American. And, 
so I am grateful for this hearing. There are no easy answers, 
but we have to address it; we have to hear from people; we have 
to hear from teenagers, teachers, and others. I am pleased with 
this hearing and look forward to the testimony of the panelists 
today and to participating in the hearing.
    Mr. Mica. Thank the gentleman.
    I now recognize for an opening statement, the gentleman 
from New York, Mr. Towns.
    Mr. Towns. Thank you very much, Mr. Chairman, and let me 
thank you and also the ranking committee chairperson, Mrs. 
Mink, for holding this hearing today.
    I think this is a very timely hearing; no question about 
that. But I think that Congresswoman Mink touched upon it--that 
for some reason we think blame is a solution to the problem. 
Well, blame is not a solution to this problem. I think we have 
to stop and look at where we are, at what we are doing. We 
continue to cut out various programs and then expect not to 
have any problems.
    Years ago, we had a lot of intramural programs; we had 
afterschool programs--we had a debating society; we had varsity 
as well as junior varsity--and all these activities gave young 
people a sense of value. They felt they were involved in 
something; they were involved in the community, but now they 
seem to be disconnected. We continue to move in this direction 
not recognizing that we are not saving money in the long run 
and we are hurting people in a lot of ways. So, I think that we 
now have to stop and take a very serious look at where we are 
and say, ``Wait a minute, what we are doing is just not 
working.'' We have problems. Let us now go back and do some of 
the things we have done in the past. Sure, a person might not 
be able to make the varsity team, but that doesn't mean they 
should not be involved in something. Also, there is no law that 
says that the school should shut down at three o'clock and 
nobody should be allowed in it. I think that the activities 
could go on in many, many ways. I think if we had strong 
debating teams, then maybe a lot of the fights that take place 
would not occur, because they would be able to talk them out 
and they would have the kind of skills that would enable this. 
I think all of these things need to be seriously examined 
before we start doing all kinds of crazy things to address 
school violence.
    The last thing that I think is a very serious issue, is toy 
guns. We need to take a look at those toy guns that look like 
guns and begin to say ``Look, we need to get rid of them.'' We 
need to take a position and take a position on that now. We 
have too many young people being killed just for the fact they 
had a toy gun in their hand. We need recognize that police 
officers today, in this atmosphere and climate, are not going 
to interview anybody before they make a decision to shoot. They 
are not going to say, ``Is your gun a toy or is your gun 
real?'' They are not going to do that. They are going to shoot, 
and then after that, the issue will come up that it was only a 
toy gun and he or she was only 13 or only 14 or only 15.
    So, I think we need to look at all these things. The errors 
that we can correct, the errors that we can do something about 
we should do something about. And those errors that we can't do 
anything about, then that is different, but the point is that 
we have not even tried in the way that I feel that we should 
try.
    So, Mr. Chairman, I think you are on the right track by 
bringing in the experts and letting us talk with them and try 
to get some information and ideas about how we should move and 
where we should move and recognize the fact that sometimes when 
we eliminate a program we don't save much. Sometimes, when we 
eliminate a program, we save money here, but we spend it on the 
back end, and I think that we need to be very, very concerned 
about that.
    Thank you very much for holding this hearing, and I yield 
back.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]
[GRAPHIC] [TIFF OMITTED] T3843.001

[GRAPHIC] [TIFF OMITTED] T3843.002

    Mr. Mica. I thank the gentleman and now would like to 
introduce our first panel of witnesses. Our first witness is 
Dr. Nelba Chavez, Federal Administrator of the Substance Abuse 
and Mental Health Services Administration of the U.S. 
Department of Health and Human Services. Our second witness is 
Mr. William Modzeleski, Director of the Safe and Drug Free 
Schools Program for the Department of Education. Both of these 
witnesses, as I said, oversee Federal programs dealing with 
this issue for which we already spend hundreds of millions of 
dollars. I see that we have more than two there--I did well in 
math--is anyone else going to testify? OK, we are not going to 
have anyone else testify.
    This is an investigation and oversight panel of Congress, 
and we do swear in all of our witnesses. So, could I ask the 
two witnesses to stand, please.
    [Witnesses sworn.]
    Mr. Mica. The witnesses answered in the affirmative. I 
would like to welcome both of you today. We are anxious to hear 
what you are doing and your perspective on this important 
issue.
    I might say that normally we have a 5-minute rule, but we 
will extend that, since we only have two in this panel. 
However, if you have lengthy statements or other documents you 
would like to be made part of the record, we will do that upon 
request.
    So, with that, I would like to, again, welcome you and 
recognize, first, Dr. Nelba Chevez, Administrator of Substance 
Abuse and Mental Health Services Administration, also known as 
SAMHSA, at the U.S. Department of Health and Human Services. 
Welcome, and you are recognized.

STATEMENTS OF NELBA CHAVEZ, ADMINISTRATOR, SUBSTANCE ABUSE AND 
   MENTAL HEALTH SERVICES ADMINISTRATION, U.S. DEPARTMENT OF 
 HEALTH AND HUMAN SERVICES; AND WILLIAM MODZELESKI, DIRECTOR, 
  SAFE AND DRUG FREE SCHOOLS PROGRAM, DEPARTMENT OF EDUCATION

    Dr. Chavez. Thank you, Mr. Chairman. I want to take this 
opportunity to thank you for your leadership and to also thank 
the other members of the committee for your commitment to the 
very, very serious problems that we are facing.
    I have an oral testimony, but I also have written testimony 
that I would like to enter for the record.
    Mr. Mica. Without objection, the complete statement will be 
made part of the record.
    Dr. Chavez. Thank you. I also want to introduce Dr. Bernie 
Arons who is to my left. He is the Director of the Center for 
Mental Health Services, and, Dr. Karol Kumpfer, who is the 
Director for the Center for Substance Abuse Prevention. They 
will be available for any further questions that you may have.
    Let me just start out by saying that we are here today 
because we care deeply about America's future. A month ago--
and, again, like you, Mr. Chairman, I put this together a few 
days ago, so I am talking about a month ago--there was a 
chilling message about the future that stunned all of us. That 
was the day two students in Littleton, CO opened fire, killing 
classmates in cold blood. This morning, we heard about the 
shootings in Atlanta. Similar horrors around the country have 
become as familiar on the news as random drive-by shootings. A 
poll of American adolescents revealed that 47 percent of teens 
believe their schools are becoming more violent. In addition to 
being perpetrators and victims of violence, children are also 
harmed by being witness to violence. Children's exposure to 
violence and maltreatment is significantly associated with 
increased depression, anxiety, post-traumatic stress disorder, 
anger, greater alcohol and drug use, and lower school 
attainment. It would be inaccurate and misleading to claim that 
any single influence leads to violence, whether it is abuse, 
emotional and behavior problems, peer pressure, alcohol and 
drug use, lack of parental guidance, or pro-violence or drug 
use media messages. These and a host of other influences are 
involved. Our Nation's children, adolescents, families, and 
communities clearly have multiple needs, and they deserve 
comprehensive solutions.
    We are here to discuss what we, in the Federal Government, 
can and must do to turn our commitment into progress for our 
children. We have already pulled together research which 
outlines the course to take in the short and the long term. The 
findings are complex but not surprising. Children exposed to 
drugs, family conflicts, academic failure, and whose friends or 
peers engage in anti-social behaviors are at risk for negative 
and violent outcomes. Conversely, we know children can be 
protected from these risks. Even more so than risk factors, 
protective factors can have impact for the rest of their lives 
in helping them overcome adversity.
    Just yesterday, we released findings from one of our 
prevention programs. We found, in successful programs, 
protective factors start with meaningful contact with adults 
who convey positive expectations. Our children all need 
opportunities to become involved, and they need support in 
building interpersonal skills. Our comprehensive evaluations 
also show that programs must be flexible. Interventions that 
work take into account the emotional and cognitive level of the 
children and the developmental tasks appropriate for different 
ages.
    As we look at the multiple challenges faced by our 
children, perhaps the most troubling observation is that until 
they are diagnosed with a serious mental problem, become 
addicted or involved in the criminal justice system or worse, 
there is no system and very few services available in this 
country that identify and intervene with children and families 
before problems occur.
    Increasingly, we have become aware of the multitude of 
problems that children in adolescence face. For example, today, 
one in five children in adolescence in this country have a 
serious emotional or behavioral problem, yet 60 percent of them 
do not receive the treatment they need. If we wait until 
children turn to crime, drugs, or enter the juvenile justice 
system, we all pay the price. We pay the price in suicide, 
child abuse, addiction, violence.
    Two initiatives at SAMHSA look at the whole child within 
the context of the family and the community. Through these and 
other prevention programs, we are working to address the needs 
of our children earlier on. First, in partnership with the 
Departments of Education and Justice, we announced the Safe 
Schools, Healthy Students initiative just last month. This 
collaborative effort will provide 50 school districts 
throughout the United States with tools to develop and 
implement comprehensive, community-wide strategies for creating 
safe and drug free schools and for promoting healthy childhood 
development; meaning physically and mentally healthy. Second, 
we will soon announce the funding of initiatives to help expand 
school-based programs and raise awareness about mental health 
services for children.
    At SAMHSA, we are working to support the President and your 
vision for American youth. We know the protections we can offer 
are stronger than the risks our children encounter. We know we 
must act quickly, but we must act wisely.
    I would like to close with the words of Tito, an ex-gang 
member. He says, ``Kids can walk around trouble if there is 
someplace to walk to and someone to walk with.'' He is telling 
us that we all have remarkable potential; our job is to open 
the door. Thank you.
    [The prepared statement of Dr. Chavez follows:]
    [GRAPHIC] [TIFF OMITTED] T3843.003
    
    [GRAPHIC] [TIFF OMITTED] T3843.004
    
    [GRAPHIC] [TIFF OMITTED] T3843.005
    
    [GRAPHIC] [TIFF OMITTED] T3843.006
    
    [GRAPHIC] [TIFF OMITTED] T3843.007
    
    [GRAPHIC] [TIFF OMITTED] T3843.008
    
    [GRAPHIC] [TIFF OMITTED] T3843.009
    
    [GRAPHIC] [TIFF OMITTED] T3843.010
    
    [GRAPHIC] [TIFF OMITTED] T3843.011
    
    [GRAPHIC] [TIFF OMITTED] T3843.012
    
    [GRAPHIC] [TIFF OMITTED] T3843.013
    
    [GRAPHIC] [TIFF OMITTED] T3843.014
    
    [GRAPHIC] [TIFF OMITTED] T3843.015
    
    [GRAPHIC] [TIFF OMITTED] T3843.016
    
    [GRAPHIC] [TIFF OMITTED] T3843.017
    
    Mr. Mica. Thank you for your testimony, we will hold 
questions until the other witnesses have testified.
    I will now recognize Mr. Modzeleski, Director of the Safe 
and Drug Free Schools Program in the Department of Education.
    Mr. Modzeleski. Thank you, Mr. Chairman. Good morning, 
Madam Vicechairman and members of the committee. I would like 
to enter my complete testimony into the record.
    Mr. Mica. Without objection, so ordered.
    Mr. Modzeleski. Thank you very much. On behalf of Secretary 
Riley, I want to say that I am very pleased to testify before 
this committee this morning.
    We feel that the Department of Education has a key role in 
helping to prevent school crime and violence. The Department of 
Education has been at the forefront of supporting schools with 
resources for drug and violence prevention activities and 
assisting schools in ensuring that every child has the 
opportunity to go to school and every teacher has the 
opportunity to teach in school without being threatened, 
bullied, robbed, attacked, pressured to buy illicit drugs, or 
present among other students using illicit drugs.
    We are, however, not alone in these efforts. Working very 
closely with us every step of the way are our colleagues from a 
host of agencies within the Departments of Justice, Health and 
Human Services, the Federal Emergency Management Agency, and 
the Office of National Drug Control Policy. Our work with these 
other agencies reflects a partnership approach to creating safe 
and drug free school environments, an approach we would like to 
see every community in this country adopt. We believe success 
in creating safe schools is contingent upon our ability to 
forge linkages at all levels of government, to share resources 
and ideas, and to work together for the common good of our 
children and youth.
    As you are aware, 1 month ago, two young men walked into 
Columbine High School in Littleton, CO and several hours of 
random shooting changed the perspective of many people in this 
country about the relative safety of our schools. The tragedy 
at Columbine, coming approximately 1 year after a string of 
other school incidents where there were multiple victims, and 
this morning's shootings at Heritage High School in Rockdale 
County, GA, gave many the impression that our schools, 
regardless of where they are located, are places where neither 
teachers nor students are safe. Perception, however, is not 
reality. While there are some schools in this country where 
students and teachers fall victim to crime and violence, data 
collected by the Departments of Justice and Education and the 
Center for Disease Control show that schools remain safe 
places, safer than many of the communities in which the 
students come from, and safer than many of the homes in which 
they live.
    The report issued by the Departments of Education and 
Justice, in October 1998, the Annual Report on School Safety, 
provides some evidence of this. It shows that 90 percent of 
public schools report no incidents of serious violent crime, 
and less than half--43 percent--of schools reported no crime at 
all. Children age 12 to 18 are twice as likely to be a victim 
of a serious violent crime in the community as they are in 
school, and, overall, over the past 5 years, school crime, 
generally, has decreased. In 1996 and 1997, while 6,093 
students were expelled for bringing a firearm to school, 
preliminary data for the 1997-1998 school year indicate that 
this number is decreasing.
    I may also note that despite recent high visibility 
incidents in the last 2 years, school-associated violent deaths 
remain extremely rare events. Fewer than 1 percent of all the 
homicides and suicides among school age children happen at 
school, on the way to school, or at school-sponsored functions. 
The study conducted for the 1992-1993 and 1993-1994 school 
years by the Departments of Education, Justice, and the Centers 
for Disease Control found that in a 2-year period, 63 students, 
age 5 through 19, were murdered at school, and 13 committed 
suicide at school. Firearms were responsible for 77 percent of 
the total number of school-associated violent deaths. The 
victims and offenders tended to be young--the median ages were 
16 and 17 respectively--and male--82 and 95 percent 
respectively. And that has occurred in communities of all sizes 
in 25 different States.
    Furthermore, preliminary data from the joint Department of 
Education, Centers for Disease Control study indicate that the 
number of students who are homicide or suicide victims in 
schools has been gradually decreasing since 1992, even though 
the number of multiple homicide events has been increasing.
    Even though data related to school crime and violence 
indicate that schools remain among the safest places for 
children and youth-to-be, we should not be satisfied. We can do 
better. We can create schools where every child can learn, and 
every teacher can teach without being threatened or victimized. 
However, in order to do so, we will have to overcome a series 
of obstacles that confront many schools. We are working 
diligently to this by developing strategies to assist schools 
in collecting and utilizing sound objective data for program 
planning and decisionmaking; by identifying and encouraging all 
schools to implement research-based programs; by viewing school 
safety and drug prevention efforts in a broader, more 
comprehensive context of violence and drug prevention efforts 
and not used in isolation with other prevention efforts or 
other things happening in schools; by finding a better way to 
target resources, schools and communities and needs; and by 
assisting schools to ensure that all students are connected to 
an adult in school and all students are provided a range of 
opportunities that afford them the opportunity to achieve their 
fullest.
    We are doing this in a collaborative fashion through a 
number of means: through the development and dissemination of a 
range of publications, such as the Early Warning Guide, which, 
hopefully, Kevin Dwyer will talk about from one of the other 
panels; through improved information collection, analysis and 
dissemination, such as our Annual Report on School Safety; 
through expanded technical assistance opportunities, such as in 
the area of school safety, with the joint Department of 
Education OJJDP efforts; through targeted training and topics, 
such as conflict resolution and hate crimes; through the 
identification of exemplary programs and exemplary schools by 
our expert panel on Safe, Disciplined, and Drug Free Schools; 
through linkage of the Department of Education efforts, such as 
the 21st century learning centers; through the development of 
discretionary programs which provide resources to hire persons 
who assist middle schools, identify the most common sense 
strategies available for these schools; and, as Dr. Chavez 
said, through the development and support of an initiative 
entitled Safe Schools, Healthy Students.
    I would like to say one thing about this initiative--it 
signals a clear change in the way that we are approaching and 
addressing the problem of school violence. Rather than provide 
schools and communities with funds to address a portion or 
single element of the problem they face and provide funds 
independent of what other agencies do, we have designed a 
program which will provide funds to local education agencies to 
develop comprehensive program approaches to school safety. 
Schools will have to develop a plan which addresses six 
elements necessary for the creation of a safe school, including 
school security, mental health services, and drug and violence 
prevention programs.
    Last, I would like to quickly mention our proposal to 
overhaul the Safe and Drug Free Schools Program. Our 
reauthorization proposal for the Safe and Drug Free Schools 
Program, which will be submitted tomorrow, will make 
significant changes to the effectiveness of the program. The 
proposal will balance local flexibility with greater 
accountability; it will emphasize the implementation of high 
quality research-based programs that are consistent with the 
principles of effectiveness; it will strengthen program 
accountability requiring recipients of funds to adopt outcome-
based performance indicators in a comprehensive, safe and drug 
free school plan; it will help local education agencies respond 
to violent and traumatic crises by establishing the School 
Emergency Response to Violence Program.
    This program would authorize the Secretary to provide rapid 
assistance to school districts that have experienced violent or 
other traumatic crises that have disrupted the learning 
environment. It will require that students found in possession 
of a firearm in school be evaluated to determine if they pose 
an imminent threat of harm to themselves or others. Other 
provisions of the Elementary and Secondary Education Act we 
propose would highlight that each State submit information in 
its annual report card, including information regarding 
incidents of school violence, drug and alcohol abuse, and the 
number of instances in which a student has possessed a firearm 
in school. Further, it would require districts to have and to 
enforce on an equitable and consistent basis, firm school 
discipline policies. We think adoption of these changes will go 
a long way to improving the quality and effectiveness of drug 
and violence prevention programs in schools.
    In closing, I would like to state that creating safe and 
drug free schools may be a difficult but not impossible task. 
We, at all levels, have done a lot to ensure that all students 
and all teachers have the opportunity to go to schools that are 
safe, disciplined, and drug free, but we clearly recognize that 
there is a lot more than needs to be done. We must be willing 
to tackle difficult questions, such as how to limit youth 
access to guns, and we must do it in a non-partisan fashion. We 
stand ready to work with this committee on identifying and 
implementing strategies that will make our schools stronger and 
safer.
    Mr. Chairman, one final comment, and that is to clarify in 
your opening statement the fact that the Gun Free Schools Act, 
which was passed in 1994, is part of the Elementary and 
Secondary Schools Act. That particular provision of the law did 
not criminalize the carrying of firearms. It required all 
States to adopt policies which, one, require the expulsion of 
all students found to have brought a firearm to school, and, 
two, to report these incidents to appropriate law enforcement 
officials, which in most jurisdictions are the local police or 
sheriff. They are the ones who are making the determination as 
to what should be done with an individual possessing a firearm.
    Thank you very much.
    [The prepared statement of Mr. Modzeleski follows:]
    [GRAPHIC] [TIFF OMITTED] T3843.018
    
    [GRAPHIC] [TIFF OMITTED] T3843.019
    
    [GRAPHIC] [TIFF OMITTED] T3843.020
    
    [GRAPHIC] [TIFF OMITTED] T3843.021
    
    [GRAPHIC] [TIFF OMITTED] T3843.022
    
    [GRAPHIC] [TIFF OMITTED] T3843.023
    
    [GRAPHIC] [TIFF OMITTED] T3843.024
    
    [GRAPHIC] [TIFF OMITTED] T3843.025
    
    Mr. Mica. I thank you for your testimony. In fact, I thank 
both of our witnesses.
    We do have a vote, and I think we have got about 6 or 7 
minutes left in the vote, so we will recess this subcommittee 
hearing until 11:15. I will ask our witnesses to come back at 
that time, and we will begin questions. Thank you; we are in 
recess.
    [Recess.]
    Mr. Mica. I would like to call the subcommittee back to 
order.
    We have heard from our first two witnesses. They have 
described some of the Federal programs that deal with the topic 
at hand. The problem of school violence.
    I would like to start the first round of questioning, if I 
may, by directing a couple of questions to the Director of our 
Safe and Drug Free School Programs--is it Modzeleski?
    Mr. Modzeleski. Yes, sir.
    Mr. Mica. I want to pronounce it correctly. Sir, I am 
afraid that if I told the folks that you spent how much? Is it 
$566 million?
    Mr. Modzeleski. Yes, sir.
    Mr. Mica. Is that your amount--$566 million for Safe and 
Drug Free Schools, and parents were grading the report card for 
the agency right now, you would probably be getting a ``D'' or 
an ``F.'' I think the perception out there is that we are not 
addressing the problem, and it appears we are spending 
significant amounts of money. Was it you that testified that 
there is another program that is going to be introduced or you 
have an announcement coming?
    Mr. Modzeleski. Yes, sir.
    Mr. Mica. And when is that?
    Mr. Modzeleski. Either today or tomorrow.
    Mr. Mica. And can you tell us the details of it?
    Mr. Modzeleski. Yes, sir, very much so. Let me first say 
that it is not the Department of Education that is spending in 
1998 over $550 million on State grants. For the most part, 
these are funds that go to the State education agencies and, in 
turn, go down to the local education agencies, and the local 
education agencies are making determinations and decisions 
about how to spend these dollars with a great deal of 
flexibility. So, decisions regarding what programs to place in 
schools, what activities to engage in, are being made at the 
local level. They are not being made at the Federal level.
    The entire Elementary and Secondary Schools Act will be 
submitted for reauthorization, as I said, either later today or 
tomorrow. The President will set up the entire bill, and that 
will start a process both here in the House as well as in the 
Senate on reauthorizing the entire bill. Title IV of that bill 
is the Safe and Drug Free Schools Act, and that contains 
provisions for overhauling the Safe and Drug Free Schools 
Program. What it will do is that, No. 1, we are attempting to 
balance the flexibility with greater accountability to improve 
the quality of programs that are funded at the local level 
while continuing to ensure that decisions made about what 
programs to adopt, what programs to place in schools, are 
decisions made at the local level, not in the State Capitol nor 
in Washington.
    Two, is it strengthens the Guns Free Schools Act by 
requiring that anybody who is found to be in possession of a 
firearm or somebody who brings a firearm to school will have to 
go through a mental health assessment to determine whether or 
not that person poses a threat to himself or to others.
    Three, it adds a provision that will provide funds for 
recovery to schools, such as Columbine or Springfield, OR, last 
year, that have had tragedies.
    It also sets up a provision in other titles, specifically 
title XI which will require that schools not only have school 
discipline policies but that those school discipline policies 
be developed with parents and students, that they be enforced 
in an equitable basis, and also that schools, school districts 
and the States have report cards and that the report cards 
contain information not only on firearms but also on other 
incidents of serious violent crimes that occur in the school.
    Mr. Mica. It is my understanding that prior to 1998, there 
was actually more money in the program. Is that correct?
    Mr. Modzeleski. Yes, sir. Yes, there was.
    Mr. Mica. I guess there was an outcry of criticism as to 
how moneys for the State schools program was being expended. 
The criticisms were--paying for a clown act, magic shows, a new 
Pontiac Grand Prix, a holiday awareness campaign, encounter 
seminars at a tourist retreat. I guess you got a lot of heat 
from Congress about how the money was spent, so there was a 
cutback. There is an array of other programs--the camera is 
rolling, and I don't want to get into a description of all of 
them here--but they arguable were not promoting safe schools. I 
guess there was quite a bit of criticism, and that is one 
reason why some of these funds got cut. Is that correct?
    Mr. Modzeleski. It is one of the reasons why. It wasn't the 
sole reason why, and, also, again--
    Mr. Mica. If it wasn't the reason why, what has been done 
to make certain that these expenditures for which you were 
criticized, or your program was criticized, are not reccurring? 
Have we taken care of these problems?
    Mr. Modzeleski. We think we have. I think that there have 
been several steps. One, again, to ensure that the steps that 
we have taken are codified. In our reauthorization proposal, 
you are going to see significant steps to improve the 
accountability of the Safe and Drug Free Schools Program. 
Second, in July of last year, we issued what is called the 
Principles of Effectiveness. What we require now from every 
school district receiving funds from the Safe and Drug Free 
Schools Program is that they do four things: one is that they 
conduct an assessment of their problems, so, clearly, they have 
a better understanding of what is happening in the school and 
programs are based upon that assessment, not upon guesswork or 
not upon what an individual says. Two, we are asking every 
school district in this country to work with the community to 
develop measurable goals and objectives so we know exactly 
where they are. Three, we are asking every school district that 
uses Safe and Drugs Schools Program dollars to ensure those 
dollars are being used for research-based programs. And, four, 
we are asking every school district to ensure through a 
periodic evaluation, that the goals and objectives they have 
set out--not what the Federal Government established--but the 
goals and objectives are actually met, and that if the goals 
and objectives aren't met, that the program be either altered 
or eliminated.
    Mr. Mica. How many people do we have administering this 
program?
    Mr. Modzeleski. Approximately 25, sir.
    Mr. Mica. That is the total in Washington?
    Mr. Modzeleski. Yes, sir.
    Mr. Mica. OK. You gave some statistics. It was interesting 
the way they were presented, and I am not sure--maybe you could 
clarify for me--you said 43 percent of the schools reported no 
crime?
    Mr. Modzeleski. Yes, sir.
    Mr. Mica. Does that mean that 57 percent, more than a 
majority, experienced some incident of crime?
    Mr. Modzeleski. Some incident of crime; yes, sir. I should 
also say that one of the statistics--and if you would allow me, 
I would love to put the 1998 report into the record.
    Mr. Mica. I would be glad to do that. Without objection, so 
ordered.
    [Note.--The 1998 Annual Report on School Safety may be 
found in subcommitee files.]
    Mr. Mica. Is that statistic for elementary, secondary--what 
schools?
    Mr. Modzeleski. For all three levels, sir.
    Mr. Mica. For all three levels.
    Mr. Modzeleski. And it also includes serious crime as well 
as serious, non-violent crimes, such as theft, which is the 
largest crime that occurs in schools today.
    Mr. Mica. But over a majority of our schools had some 
reported incident of crime?
    Mr. Modzeleski. Some incident of crime, including less 
serious crimes, such as theft.
    Mr. Mica. In your recommendations that are coming out 
tomorrow, you talked about the law that was passed some time 
ago dealing with guns and schools. Is there a proposal to 
Federalize this as a criminal act in what is being proposed 
tomorrow?
    Mr. Modzeleski. No, there is not, sir.
    Mr. Mica. OK. Dr. Chevez, you oversee our Substance Abuse 
and Mental Health Services Administration at the U.S. 
Department of Health and Human Services. How much does your 
agency spend annually?
    Dr. Chavez. I am sorry, Mr.--
    Mr. Mica. What is the total budget for your agency?
    Dr. Chavez. Our total agency budget for SAMHSA is 
approximately $2.5 billion. The majority of those dollars are 
in block grants for substance abuse.
    Mr. Mica. My question would be--and I know you have many 
worthwhile substance abuse programs--is there any way for you 
to give the subcommittee an estimate of what percentage of 
dollars might be directed toward the question of school 
violence or problems? I don't know if that is possible, but 
maybe you could give us some idea of what level of funds you 
think are going toward those programs that deal with this 
problem?
    Dr. Chavez. Mr. Chairman, I would be very happy to submit a 
detailed report to you and to the committee.
    Mr. Mica. Without objection, we will make that part of the 
record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3843.026
    
    Mr. Mica. We are trying to get some handle on the dollars 
that are being spent and how they are being spent. I thought 
you gave some interesting statistics. You said one in five 
children in our schools have serious emotional or mental health 
problems. Was that--I was trying to write it down; I failed my 
stenograph course--was that what you said?
    Dr. Chavez. That is correct, Mr. Chairman. Basically, what 
I said--
    Mr. Mica. And you said 60 percent are not having their 
mental health or emotional problems addressed. Is that also 
correct?
    Dr. Chavez. Yes, Mr. Chairman.
    Mr. Mica. One of the problems we have here is that it seems 
like we have either an emotional or values or mental health 
problem with students who aren't conducting themselves in a 
normal fashion. In fact, a very abnormal fashion. As far as 
correcting that, do you have any specific recommendations? And 
I know there have been proposals, that is the first part of the 
question. The second part is, the question about parity as far 
as coverage with insurance, health insurance, relating to 
mental health. I wonder if you have any comments about what we 
should do in that regard? So, there are two parts to the 
question if you could please respond.
    Dr. Chavez. Yes, thank you. Let me respond to the first 
part of your question. What we are seeing--and I indicated that 
earlier--is that children in adolescence, more and more, have a 
multitude of problems, a multitude of needs, and this cuts 
across all segments of society--all socio-economic groups as 
well as all racial and ethnic groups. We are also seeing that 
we have got--as I indicated earlier, approximately one in five 
children in this country that may have a serious emotional 
problem and/or a behavioral problem. Most of these children--60 
percent--are not able to get the kind of services they need. If 
you look at our funding, for example, our mental health block 
grant under the Substance Abuse and Mental Health Services, the 
block grant is targeted for those individuals and for children 
who have a serious emotional problem. We don't really have a 
system in this country, for example, where parents and teachers 
can turn when they see a child in the classroom or in the home 
experiencing some problems, either related to depression or 
anti-social behavior, unless they have insurance. If they have 
insurance, in most instances, the insurance will not cover the 
kind of treatment that they may need.
    Your question about parity--yes, I strongly support mental 
health parity as well as substance abuse parity, because, in 
the long run--and we have several studies we have done in this 
area where the cost is minimal--in the long run, I believe that 
it is very cost effective.
    Mr. Mica. I probably agree with you. I oversaw the--in two 
sessions of Congress, the Federal Employees with Health Benefit 
Program, and I think it only cost about $18 million to provide 
9 million people with that benefit. Instead, the administration 
proposed a series of mandates and regulations with no medical 
benefits--that is another question; we won't get into it at 
this hearing. But I agree with your comments on parity as far 
as insurance and mental health.
    Either of you, just a final question: Do we have in the 
agencies and Departments, right now, some type of task force or 
some type of activity to address what we have seen reccurring 
and the problems that we have? What are we doing right now in 
addition to--you said you were coming forward with some 
recommendations--but are we really looking at? I imagine we 
have studies and other things about this, but are experts 
coming together and are we trying to focus in on this problem? 
Mr. Modzeleski.
    Mr. Modzeleski. Thank you, Mr. Chairman. The answer is 
clearly, yes. There are a variety of things happening, not only 
in the Department of Education but in the Department of 
Justice, the Department of Health and Human Services, and 
within the various agencies within those large Departments. 
Both Dr. Chavez and myself mentioned the Safe Schools, Healthy 
Children Initiative. This is a program whereby representatives 
from several Federal agencies meet on a regular basis to look 
at the type of strategy and program that is really needed to 
create not only safe schools but healthy children. It is an 
effort and attempt to begin to combine funds from not one 
agency, but funds from three agencies, in the development of a 
comprehensive program designed to create safe schools. So, its 
front end is on the prevention side.
    Also, and again, I hope that Dr. Dwyer, later, talks about 
the Early Warning Guide, because we have been working 
collaboratively with the Department of Justice, with the 
National Association of School Psychologists, and with a host 
of other groups and organizations to identify the front end. 
What prevention efforts are needed? What happens when you 
identify a child who has some problems in school? Where do you 
refer that particular child? How do you refer them? So, there 
are some efforts on the prevention side.
    Last, in the crisis or the response, what happens when a 
Littleton does occur, when a Springfield does occur? In the 
fiscal year 2000 budget for the Department of Education, there 
is $12 million in there that would basically set up a revolving 
fund to help schools recover from such disasters.
    And, in my testimony, we outlined a whole series of 
prevention and early intervention activities that we are 
engaged in. I am sure that Dr. Chavez is engaged in a whole 
group of other activities. I just want to say that these are 
not activities that we, alone, are engaged in; this is a 
partnership. We have got to continue to look at this as a 
partnership working collegially and cooperatively with other 
agencies in the Federal Government.
    Mr. Mica. Dr. Chavez.
    Dr. Chavez. Thank you, Mr. Chairman. We are working in 
several areas. One, we have a prevention roundtable that has 
been established by Dr. Karol Kumpfer, the Director of our 
Center for Substance Abuse Prevention. Basically, what they are 
doing is working with not only agencies within the Federal 
Government but they have also been very, very much involved in 
a coalition throughout the United States, the Prevention 
Coalition.
    In addition to that, we have been very much involved, 
through our Center for Mental Health Services, in the incidents 
that have occurred in Colorado as well as those in other 
communities. Through the work of Dr. Arons and many of the 
other Federal agencies, including working very closely with Mr. 
Modzeleski, we have been addressing the issue. In fact, I want 
to say that we had begun working on this long before this 
incident happened in Littleton. In the project I described 
earlier where we brought in all the three major Federal 
agencies on that one project, that didn't evolve, in terms of 
the idea, from the Federal people; this was after having focus 
groups with teachers, principals, students, and people 
throughout the country. I think it is very important that we 
must listen to what our young people are saying in terms of 
some of the things they are feeling, some of the things they 
see as solutions to these problems.
    Mr. Mica. Thank you. I would like to yield now to our 
ranking member, Mrs. Mink.
    Mrs. Mink. Thank you, Mr. Chairman. I would like to ask 
unanimous consent that we be allowed to submit written 
questions to all of the witnesses today.
    Mr. Mica. Without objection, so ordered, and we will leave 
the record open for at least 2 weeks.
    Mrs. Mink. Two weeks, fine. Because there are so many 
questions on my mind that I think are relevant to this inquiry 
regarding violence.
    What strikes me as being the most provocative of all the 
questions relating to the Columbine High School situation is 
the fact that most of the witnesses that were interviewed 
following that incident stated that there was no drug abuse, no 
drugs evident in the two young people. Nor was there, in terms 
of the teachers and school principal and other officials that 
had contact with the two, any indication that something like 
this was part of their intention. Other than what was 
discovered after the fact on their website and in various e-
mails, there was no sign.
    I am also struck by your statement, Dr. Modzeleski, that in 
90 percent of the schools, there were really no reports of 
serious violent crimes, that we are talking about 10 percent of 
the schools where these incidents happen. With the assets that 
the Congress has provided you in this area of safe schools--the 
drug issue is separate, because I think that sometimes in the 
past we have concentrated our effort on the drug abuse issue. 
Today, we are trying to see what we have done in the safe 
schools issue, if we can separate it out, and what I wanted to 
ask both of you is, of all the grants, the programs that you 
have authorized, the funding that you have allowed the State 
and local agencies to use, which, in your opinion, have been 
the most productive in responding to the type of situation that 
we found at Columbine?
    Mr. Modzeleski. Let me say that Jefferson County in 
Colorado is the largest school district in Colorado; therefore, 
it receives the most Safe and Drug Free Schools dollars. It 
receives more Safe and Drug Free Schools than any other school 
district in Colorado.
    Mrs. Mink. How much would that be?
    Mr. Modzeleski. I will get that for you, Madam Vice 
Chairman.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3843.027
    
    Mr. Modzeleski. I spent a couple days out in Littleton 
shortly after the disaster trying to work through some mental 
health crisis issues with them and trying to ensure that they 
had staff on board to help reopen the school shortly after it 
happened. I was struck by the fact that Jefferson County has 
one of the better Safe and Drug Free Schools Programs in the 
State, not only in the State, I think in country; very 
diligent--
    Mrs. Mink. What did it do that you found better than 
others?
    Mr. Modzeleski. First of all, I think it really made an 
attempt to connect children to institutions, connect children 
to schools. To identify those children who are at risk of 
alcohol and drug use, and really provide them with the services 
and support necessary to help them along the path. I would also 
say that while this is a hearing on school safety and school 
crime, I don't think we could decouple the issues of alcohol 
and drug use from school safety. Many of the risk factors 
inherent in alcohol and drug use are the same risk factors 
inherent in violent behavior. I think we really need to find a 
better way at the local agencies to deal with both issues and 
not segregate the issues out. I think the fear that we have is 
that if you begin to segregate the issues out, schools will 
focus only on one issue and that is the issue of school safety 
to the disregard of the other issue, which is alcohol and drug 
use when in many ways they are linked together. We really need 
to find a way to get schools to think about what the risk 
factors are that children possess, and what are the protective 
factors that we can instill in schools, in communities, and in 
homes that really protect against violence, drug use, and other 
types of behavior which are unacceptable?
    So, again, the issue of the dollars that local education 
agencies receive are flexible dollars. The community really has 
a decision whether they want to put those moneys into conflict 
resolution, afterschool programs, peer mentoring programs, teen 
court programs, hiring of law enforcement officials, more metal 
detectors. Hopefully, those decisions are not made in a vacuum 
and hopefully those decisions are made with the help and 
support of teachers, parents, administrators, and students, 
themselves.
    Mrs. Mink. Dr. Chavez.
    Dr. Chavez. Thank you, Congresswoman--
    Mrs. Mink. Before you answer, how much of your funding 
actually is directed to school situations, school-based 
situations, other than the general issue of substance abuse and 
mental health?
    Dr. Chavez. Right now, we have $40 million that we are 
directing to school violence, but, as I said earlier, we have 
other dollars, as well, but I do not have the breakdown. The 
majority of our funding--
    Mrs. Mink. Out of $2.5 billion, only $40 million to 
schools?
    Dr. Chavez. $40 million, that is correct. We have block 
grants, which is a substantial amount of money, but, again, as 
Bill indicated with their block grant, our block grant goes 
directly to the State. Once it reaches the State, the State 
makes the decisions--
    Mrs. Mink. How much of that State money is directed to the 
school-age population?
    Dr. Chavez. This is information that we do not have 
available. When the State receives those dollars, they are 
free, in terms of the flexibility of the block grant, to expend 
those dollars based on services that they--
    Mrs. Mink. There is no requirement to report back or any 
requirement for accountability for funding?
    Dr. Chavez. The requirement to report back is a financial 
requirement, it is a fiscal requirement, which they do submit 
on an annual basis, as the expenditures. In terms of whether 
the programs have been effective or not, they are not required 
to report that. However, under our reauthorization, one of the 
things we are asking for is that the block grants be based on 
performance measures, so that we will be--
    Mrs. Mink. My question is not really on effectiveness or 
how effective or appropriate or whatever; it is just an 
accounting question as to whether the funds that are block 
granted to States are going to the schools and school-age 
children?
    Dr. Chavez. The States are required to submit financial 
information on how they expend those Federal dollars in 
relation to substance abuse, treatment, prevention, and mental 
health.
    Mrs. Mink. So, you don't really know who the end user is?
    Dr. Chavez. If the State reports that information as part 
of their application, then, yes, we do, but in terms of being 
able to answer the question: Do we know what percent of those 
dollars the State is spending through their block grant on 
school violence? No, I do not have that answer. We will try and 
get that answer for you, but, again, this is something that we 
would have to go--it is not in our statute in terms of those 
kinds of things that we are required to ask the States, again, 
because of the flexibility that is there.
    Mrs. Mink. One final question, if I may have this--even 
though the red light is on. Under mental health services, are 
any of your funds directed to deal with the children in the 
category that the Education Department deals with under IDEA?
    Dr. Chavez. In our Center for Mental Health Services, we 
have an appropriation of approximately $78 million for 
children's mental health, to provide comprehensive mental 
health services in communities for children that are seriously 
mentally ill. The requirement, in terms of communities that are 
eligible to apply for this discretionary funding, is that they 
must develop a plan that includes the schools, the juvenile 
justice system, and other social service agencies.
    In the 6 years that this program has been in operation, we 
have very positive outcomes to report. For example, children 
that are part of this system have improved mentally in terms of 
their school attendance, but also we have seen a reduction in 
the number of children that have been institutionalized. 
Consequently, there have been some dramatic savings to many of 
the communities in terms of foster care, et cetera. So, yes, 
there is a direct relationship in terms of our children's 
mental health in working closely with the schools. However, I 
must emphasize that the children that are eligible for this 
program must be children that have been diagnosed as seriously 
mentally ill.
    Mrs. Mink. Thank you.
    Mr. Mica. Thank you. I would like to yield now to the 
gentleman from Indiana, Mr. Souder.
    Mr. Souder. Thank you, Mr. Chairman.
    First, I would like unanimous consent to put this chart in 
from ONDCP regarding marijuana use being related to delinquent 
behavior and also aggressive behavior.
    Mr. Mica. Without objection, so ordered.
    Mr. Souder. Clearly, not every case of every shooting in 
the country has drugs or alcohol involved. But, as we heard 
from Dr. Kingly over in the Education Committee yesterday, it 
is clearly--while not everybody who is on drugs carries a gun 
to school--it is the best predictor of whether or not somebody 
is going to bring guns to school. If, indeed, they started 
their drug abuse at an early age or it is frequent, the odds 
soar and I think you are absolutely right that they are 
interconnected.
    I have a series of questions, and, hopefully, Mr. 
Modzeleski, as we work through the Drug Free and Safe Schools 
section in the Elementary and Secondary Education Act, we can 
work together with some of the details on targeting. You had 
some suggestions here on specific things that you would like 
the States to submit, and I would like to do some followup with 
that.
    I want to make sure in my time here that I can pursue a 
question that has come up in a number of other areas, including 
our juvenile justice, that I am concerned about. It is 
troubling to me, from my religious perspective, how some of the 
difficult moral questions are being handled right now in trying 
to address the question of hate crimes. Not only have we seen, 
in some of these schools, actual persecution and shooting of 
kids because of their religious views, I am wondering whether 
or not you would have any objection if we continue to push to 
try to expand the definition to include those who have strong 
moral views. In particular, what I want to pursue here is the 
difficulty of how to do conflict resolution and reducing the 
tension where kids make judgments about others that lead to 
both verbal or physical assault and then how not to, in effect, 
offend the religious beliefs that are deeply held of other 
people.
    In particular, in this report, Preventing Youth Hate 
Crimes, in the back of this, you refer to a number of webpages. 
The only State webpage referred to in this booklet is 
Washington, in that program, in part four on hate crimes, which 
you held up--you have a disclaimer saying you don't agree with 
everything in each one. At the same time, this is the only 
State one held up--this says what is age appropriate at the 
elementary school level? And this clause says, ``A gay man is 
someone who loves another man best of all. A lesbian woman is 
someone who loves another woman best of all. Heterosexuals are 
people whose dearest love is of the other sex. People are 
bisexual if they sometimes fall in love with a woman and 
sometimes with a man.'' And then, underlined, ``people who have 
always felt as if they were in the body of the wrong sex are 
called transsexual. Some transsexual kids grow up and get sex 
change operations and some don't.''
    Now, the problem here is that many of us who have deeply 
held moral views do not want--and part of the reason there is a 
public reaction against public schools--and my kids have been 
in public schools; I have gone through public schools; I still 
have kids in the public schools--but this is the type of thing 
that would drive me to pull out. If I found that my fifth 
grader--because this says elementary school level--is being 
taught an amoral approach to transsexual sex change operations 
rather than what I believe hate crimes should be--it is 
something more like this: whether you feel someone's behavioral 
or sexual preference is right or wrong, you don't have the 
right to verbally assault them, verbally offend them, 
physically assault them, because what is offensive is taking 
your personal views out on somebody else.
    That is the problem here, but in trying to teach tolerance, 
we are, in effect, taking a neutral view on the behavior which 
is, in effect, counter to what their parents or their church is 
teaching.
    Furthermore, they can be taught that they are intolerant 
and kids become intolerant of them, because they are merely 
stating their view of what is right and wrong and what they 
have been taught by their families. And, in fact, tolerance 
goes both directions. What is intolerable is to have you take 
offensive behavior, insulting behavior, or things that restrict 
other people as opposed to having those beliefs, and this type 
of thing is expanding, and it is particularly discouraging to 
me that it is expanding under programs that, while they have 
good goals, in fact, are very offensive not only to me, 
personally--and it is offensive to me, personally. I am not 
claiming this on behalf of other people; it is offensive to me 
as a parent and as a christian, but also many, many parents are 
voting with their feet and moving out of the schools because of 
this type of thing, and I would like to hear some of your 
responses. This is a difficult question.
    Mr. Modzeleski. It is a very difficult question, 
Congressman. Thank you, and I appreciate your comments. As you 
stated, and I would agree 100 percent, this is a very, very 
difficult question that we are dealing with.
    Also, the Department of Justice, the administration is 
moving forward with a bill which would expand hate crimes 
legislation to cover issues such as you have mentioned 
regarding tolerance for sexual behavior. So, that is going down 
on different track. But, clearly, I think that in schools we 
have to be tolerant of people who are different in any way, and 
I think that covers a broad definition of hate crimes, 
tolerance because people are of a different race; tolerance of 
people who may be of a different religion; tolerance because 
they have different sexual beliefs or identities. I think that 
tolerance covers a broad range of issues, and we should be 
teaching tolerance--and this just isn't in school; I mean, 
basically, broadly speaking about tolerance.
    I am a little bit--I guess I am a little bit confused that 
if we did not teach tolerance about this particular issue, what 
would we be doing in public schools? Should we be teaching 
children not to be tolerant of somebody who expresses a 
different sexual belief? We would be willing to work with you 
on that, but this is a very, very difficult position.
    We also clearly understand from data that has been 
submitted and collected by the Department of Justice that the 
whole issue of sexual identity and differences in sexual 
identity does lead to fights, does lead to victimization on the 
part of those individuals who have different sexual identities, 
and we have to deal with the entire student body.
    Mr. Souder. But why do you stress--when there are deep 
differences of opinions on something--why do you stress--
because the word ``tolerance'' here is actually used as almost 
an attitude-changing question as opposed to tolerance in the 
sense of different people are allowed to live together even if 
they are wrong. In other words, part of free speech in America 
says that even someone who, if they don't advocate violent 
action as a Nazi or a Communist, we let them speak, but it 
doesn't mean we have to say that tolerance means that their 
behavior is OK.
    I am not asking the schools to say that homosexual behavior 
or transsexual operations or bisexual behavior is wrong; I am 
merely trying to say that they shouldn't be taking the position 
that it is normal either. In other words, what schools should 
be teaching in tolerance is that whatever that person's 
position is, you don't have a right to go verbally assaulting 
them, making fun of them, physically assaulting them. But to 
then tell them ``Oh, that is because some people choose this 
and that'' is entering into another realm of it, and that is 
moral teaching.
    Mr. Modzeleski. I see what you mean.
    Mr. Souder. And that is what a lot of us are troubled 
about. We are trying to get to that, because I may have a 
strong view, but I am not going to--I believe it is just as 
offensive to my belief to persecute, to mock, to do any of that 
type of thing.
    Mr. Modzeleski. It was not the intention of that manual to 
do that, Mr. Souder, not at all. It was basically, I think, to 
expand the whole issue, as you mentioned, of tolerant views 
toward people, because they may be different.
    Mr. Souder. Then we need to then work--because one of the 
extensions of this argument is, because you very eloquently 
pointed out, kids are made fun of. There is no question that 
any sort of difference from the norm is harassed in school, 
whether you are short, whether you don't have designer clothes, 
and so on. What I am trying to encourage here is, as we look at 
the manuals and try to do tolerance, that what we try to say 
is, we are not really going to radically change that kids are 
going to torment each other in the sense of changing, 
undergirding, things of normative behavior and that we are not 
going to make everybody the same size and so on. What we ought 
to teach them is regardless--what we have to teach in tolerance 
is that in this country everybody is here. It doesn't mean we 
have to accept everybody's behavior, but we have to learn to 
live together, which is a different goal, quite frankly, than 
much of what is in here, which is trying to change the attitude 
underneath that says whether a behavior is right or wrong, 
which is really not the business of the school. It is the 
business of the parents and the church. What you want to teach 
is how to live together so we don't become like the Balkans, 
and I would like to work with that.
    And I know I went over the 5-minutes, but I have a series 
of detailed questions on the drug issue and stuff, because we 
are looking at whether to separate some of the Safe and Drug 
Free Schools, whether we should drive the grants--some of the 
problems with these school grants is they are so small when we 
get to a given school, I want to look at some creative ways as 
we are going through--
    Mr. Modzeleski. And we would love to do that and work with 
you, Mr. Souder, on that issue, and the bill that will be 
coming forward to you very shortly expresses the administration 
views, but, as I say, we are open to working with you. Thank 
you.
    Mr. Mica. Those questions will be made part of the record, 
without objection.
    I am pleased now to recognize the gentleman from Maryland, 
Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. I want to 
thank the witnesses for being here today. I have just listened 
to Mr. Souder, and I am thinking about tolerance and looking at 
this annual report on school safety, which was prepared jointly 
by the Departments of Justice and Education, and it is very 
interesting, and I just wanted to know your views on this--I am 
sure you are familiar with it, Dr.--
    Mr. Modzeleski. Mr. Modzeleski.
    Mr. Cummings. Modzeleski. It says, under the category of 
creating a climate of tolerance, it says, ``fostering and 
maintaining a safe learning environment means creating a 
climate of tolerance in which all students are comfortable and 
secure, particularly in adolescents who have strong needs to be 
accepted by their peers. However, because of stereotypes, 
ignorance, and intolerance, certain individuals and groups tend 
to be alienated from their fellow students. A source of 
conflict in many schools is the perceived or real problem of 
bias and unfair treatment of students because of ethnicity, 
gender, race, social class, religion, disability, nationality, 
sexual orientation, physical appearance, or some other factor 
both by staff and peers. Schools can encourage students to be 
more accepting of diversity through schoolwide awareness 
campaigns, policies which prevent harassment and 
discrimination, and offering support groups.''
    How do you feel about that?
    Mr. Modzeleski. Supportive, fully.
    Mr. Cummings. I do too.
    Let me go to something that is just--first of all, I want 
to thank you, Mr. Chairman, for having this hearing and 
certainly our ranking member.
    I would venture to guess in my district, which is the inner 
city of Baltimore, there are probably somewhere in the area of 
50 to 75 black kids who are shot dead every year, every year; 
probably more than that--teenagers, students not in school. 
And, you know, when I look at the Columbine thing, I have a lot 
of sympathy, I really do; it is wrenching, and it shocks the 
conscience. And when I go in my neighborhoods and I talk to my 
constituents, they say, ``I wish somebody would scream and have 
it on national--international TV for our children and the 
funerals that we go to and the coffins that we have to buy. We 
wish that someone would send somebody into our schools, too, 
who can deal with the grief and the pain.'' And this is every 
year.
    And, so I look here at--I was listening to Mr. Souder, and 
I started thinking about some of the things that he talked 
about, and I just find it very interesting when we are talking 
about--the statement that I read talks about alien Nation. When 
these young men at Columbine--when they did their little 
research on these killers--and, by the way, these are our 
children, still. They once played hopscotch and hide and go 
seek this is just a few years later. They said one of the 
problems with these guys is they felt alienated. They felt like 
they weren't a part of anything. They also suffered from 
something that is very, very unfortunate about our society--
they were racist. They hunted down that little black boy and 
killed him, because he was black. They had a problem with 
jocks; people who apparently tried to be good guys, good 
students, probably good student government guys and girls--they 
wanted to kill them. And then we talk about gun control; we 
talk about these factors.
    There is a lot that goes into what happened there, and I 
don't think it is easy to solve this problem. We have in our 
society where we don't have the Father Knows Best society 
anymore--where mamma and daddy are at home, where mamma's at 
home; daddy works, comes home at 5 o'clock--it is not that way 
anymore. You have parents who are struggling trying to make it, 
both in neighborhoods like Columbine and in the inner city of 
Baltimore. Only in the inner city of Baltimore, usually, there 
is only one parent or some grandparents that are barely making 
it.
    And, so that leads me to this: we have a school--and I 
invite you to come to the school with me--called Walbrook High 
School in Baltimore, which is located in the inner city where 
when everybody was running around putting up all these metal 
detectors, they were taking them down.
    Let me tell you about the principles, this is a young 
principal who is about 40 years old. His name is Andrey 
Bundley, and, Mr. Chairman, I invite you have him come speak to 
us, because he got it; he gets it. What he has done is decided 
that it did not make sense to distrust his students. This is an 
all black school--he said, ``Look, we are going to create an 
environment of love, excellence, respect, and humanity.'' And, 
so he told the students, ``Look, if somebody brought a gun into 
your house, what would you do?'' All the students said, ``We 
would do something. We would make sure that mamma or somebody 
knew that there was a gun in the house.'' He said, ``Well, this 
is your house. This school is your house. You spend almost as 
much as time in this school as you do your house.'' So, there 
is no such thing in this school as a snitch, because they get 
it. They get that they are trying to protect their house. Most 
of their friends are in that school. They spend a lot of time 
there. The school is basically a major part of their life. So, 
that is No. 1.
    They don't have any discipline problems at this school. 
Why? Because they get it. And they have done something else, 
they make sure that everybody understands that no matter what 
they are or who they are, as long as they go by the rules, they 
are part of an entire body. I am not going to alienate you 
because you are not a jock. I am not going to alienate you 
because you do this or you do that; we are all a part, and it 
is creating an atmosphere. But did CBS News do anything on 
them? No.
    All of the periodicals that I have seen on education here 
lately, all I am seeing over and over again on education is how 
can we buy more metal detectors? That is what you are hearing. 
The guy was on the CBS News--on the news station last night, 
one of the national news stations, he said, I can't--the owner 
of one of these metal detector companies said, ``I can't keep 
up with the orders.''
    Some kind of way we have got to get back to something 
called parenting. That is what it is all about--parenting, 
making children feel like they are part--sometimes I think what 
happens is that we, as adults, forget what it is like to be a 
child. We get so busy legislating and doing all of this that we 
forget the faces of children and how children view life; how 
they feel when they are 13 years old and they are fat and they 
are being left out of the baseball games or they are not a part 
of it or they are not a part of any organization, because there 
is no organization to be a part of.
    And, so some kind of way, I think that when we begin to 
look at these solutions, I want you to come to Walbrook High 
School. Maybe we will get some cameras to watch these 
wonderful, beautiful, brilliant children as they come in and 
out of school feeling safe. Because they know that they care 
about each other, and they are not being biased or 
discriminating or alienating each other. They have a principal 
who understands that some kind of way if they are not getting 
it on the outside of school, he is trying to give it to them on 
the inside of the school, and, guess what? What he has 
discovered is that when they get it on the inside of the 
school, they then take it out, back to their homes, and they 
are able to teach, sometimes, their parents how to have this 
human element that we are all one; we are all human beings, and 
we are all in this world together. So, I invite you. I said all 
of that to give you an invitation.
    Mr. Modzeleski. I would be delighted to take your 
invitation.
    Mr. Cummings. Well, I want you to do it soon, because the 
school year--
    Mr. Modzeleski. Well, the school gets out--we will do it in 
the next couple of weeks, I assure you.
    Mr. Cummings. Because the school year is getting ready to 
end, and I am giving them an award, it is an award, and we all 
need to do this--it is called the U-Turn Award. We are giving 
this, because I think we need to begin to highlight the great 
things about our children instead of concentrating on the 
negative.
    There are schools that are doing it right, and that is 
another suggestion is that we do more of that. If things are 
working somewhere where there are good parent relationships 
with schools and whatever, we need to highlight those 
situations instead of getting in this total war mentality, 
``Oh, I have got to watch out, and who is going to come in with 
a gun?'' I am not saying that we don't need to do those kinds 
of things, but we also need to be moving more toward those 
schools that are doing it right. And, according to the 
chairman, when he asked you a few questions, there are 
apparently some schools--they may not be in the majority, but 
it sounds like they may very well be--who are doing it right.
    Mr. Modzeleski. There are.
    Mr. Cummings. And, so, hopefully, we can highlight more of 
them so that we can move to that, because these are still our 
kids; they are our children. They come from all kinds of 
families; they have all kinds of problems; they are dealing 
with things that most of us never dealt with when we were 
coming up, and so I want to thank you for taking me up on my 
invitation, and I am going to--we will followup as soon as the 
hearing is over.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank the gentleman from Maryland.
    I now recognize the gentleman from Massachusetts, Mr. 
Tierney.
    Mr. Tierney. Thank you, Mr. Chairman.
    Let me followup on that for a second, because I thought 
that was interesting. Does the Department of Education do 
anything in terms of identifying best practices when it comes 
to--I use the word ``discipline,'' because that is one that I 
saw in your remarks, sir, but I think it is better stated here 
probably as ``attitude?'' Do you go out and find schools that 
have somehow put together the proper atmosphere or environment 
and get those as best practices; find out how they do it and 
make that information available to other schools?
    Mr. Modzeleski. Yes, we do. Let me just say, if I can take 
30 seconds out and comment on Congressman Cummings, because I 
do believe that an overwhelming majority--
    Mr. Tierney. You are going to take my time to answer his 
question?
    Mr. Modzeleski. Well, because this gets to your point, too, 
Congressman--
    Mr. Tierney. I am only kidding; go ahead.
    Mr. Modzeleski [continuing]. Because an overwhelming 
majority of students in this country are good students. An 
overwhelming majority of students in this country don't engage 
in crime. The overwhelming majority of students in this country 
really are trying to do a good job, and I think that we need to 
do a better job identifying those students, identifying those 
schools, identifying those practices, and publishing and 
rewarding those kids.
    Now, what do we do? We do a couple of things. One is, we 
have a Drug Free Schools Recognition Program. This is a program 
where we go out on a national basis and try to identify schools 
that have exemplary drug prevention and violence prevention 
programs. We just finished a competition about 3 weeks ago. 
Those programs were site visited by fellow principals and 
teachers throughout the country, and the results of that should 
be available within approximately a month.
    Now, I will tell you that while we are moving in that 
direction and while there are schools that are promising--they 
have great drug prevention and great violence prevention 
programs--we are not doing enough; we are not getting enough. 
We need to do a better job in identifying the schools that are 
doing a good job, because we have over 15,000 school districts, 
over 100,000 schools in this country, and we are scratching the 
surface on which schools are doing a good job.
    No. 2 is that we also have a panel called the expert panel, 
which is not looking at schools, which is looking at programs--
drug prevention and violence prevention programs--setting up 
objective criteria by which to measure those programs, and 
identifying which programs meet that criteria from a research-
based perspective. So, we will have, by the end of this summer, 
a list of both what we call promising as well as exemplary 
programs.
    Mr. Tierney. And you will disseminate that?
    Mr. Modzeleski. We will disseminate it widely. I mean, 
again, this gets back to the whole issue of accountability of 
the program, the whole issue of improving the quality of the 
program. We have to, we have a responsibility of identifying 
good schools, of identifying best practices, and getting that 
information out to as many schools as possible.
    Mr. Tierney. In your remarks, at least your written 
remarks, it was indicated that even a bigger problem than crime 
or violence, really, is discipline in schools. Is there a 
Federal role at all that touches on that or where do you think 
that appropriately gets addressed and how?
    Mr. Modzeleski. It is hard to measure in an issue of 
magnitude which is greater, which affects the learning 
environment? And I think that as we look at the data, clearly, 
more schools have discipline problems than have crime problems. 
More schools have discipline problems on a regular basis. More 
schools have a few individuals who upset what goes on in the 
learning environment on a regular basis, which are not criminal 
incidents but disciplinary problems.
    In the revised, or I should say, in the proposal, the 
administration's proposal for revision of the Elementary and 
Secondary Schools Act, in title XI, there is a school 
discipline issue where we talk about all schools receiving 
elementary and secondary schools funds shall develop strong, 
sound school discipline policies--and getting back to a point--
it also clearly states that these discipline policies shall be 
enforced equitably, because very often they are not enforced 
equitably.
    So, it is not only the establishment of sound discipline 
policies, because I harken to say that about 100 percent of 
schools in this country today have discipline policies, but we 
need to do a better job examining those policies; getting 
students and teachers involved in the development of those 
policies, and equitably enforcing those policies.
    Mr. Tierney. Well, in your Safe Schools, Healthy Student 
Initiative, you note that the grants are going to be--the 
applications are going to be taken as early as June 1st. Has 
that been broadly noticed to the world here?
    Mr. Modzeleski. It has been broadly noticed to the world. 
We are just completing a series of six audio conferences 
whereby we are answering questions from the field. The 
announcement of that particular program is on our website; it 
is on Dr. Chavez' website; it is on the Department of Justice 
website. You have mailings that are going out from the 
Department of Education, the Department of Health and Human 
Services as well as the Department of Justice. There has been 
an overwhelming response to this particular program.
    Mr. Tierney. What was the basis of the six criteria that 
you said in order to have a plan qualify as comprehensive? Was 
that research? Was that--
    Mr. Modzeleski. It was really a careful examination of a 
lot of research which exists. I am sure we could probably 
expand that a little bit more, but one of the issues that we 
run into is that this is the first time where we have combined 
a substantial amount of funding into one partner trying to 
manage this program with one application. And what we are 
saying to school districts, both suburban, rural, and Indian 
tribes, is that we want you to submit one application--one 
application for mental health services, for early childhood 
development, for school security programs, for a series of 
programs and activities. And, really, what we are providing is 
a continuum of services along a broad range starting with early 
childhood development and ending up with a referral to mental 
health services if that is found to be necessary.
    Mr. Tierney. It is obviously going to mean that some of 
these schools are going to have to bring on new personnel, 
particularly in the counseling area. How do schools deal with 
the added expense that is going to entail?
    Mr. Modzeleski. Dr. Chavez mentioned--and I don't want to 
get into her venue--that there was $40 million of SAMHSA 
dollars which are going for mental health services for schools; 
$25 million of that is in this overall pot. So, there will be 
money in this overall pot for mental health services.
    Mr. Tierney. And let me just finish, because I know the red 
light is on--I was struck by the figures that 82, almost 83 
percent of the victims are males, and 95.6 percent of the 
offenders in violent situations are males. What are we doing to 
focus in on that aspect of this problem?
    Mr. Modzeleski. This gets back to a whole lot of issues. It 
gets back to the issue of really looking at this from a very 
broad-based perspective. The figures and the data you have 
there are from the 1992-1993, 1993-1994 school years. The data 
from the last 2 school years are still coming in. We don't know 
whether it is going to be different or not. I don't think the 
data for school crime are much different from the data from 
overall crime. We do know that young males are the most 
frequent purveyors of crime and violence, and what we are 
really trying to do is get schools to have a better 
understanding, through assessment processes, as to who some of 
these individuals are and then to provide them with appropriate 
services.
    Some of this gets back to the mental health side where Dr. 
Chavez' organization is involved. Some of this you will hear in 
the, I think, the last panel where Dr. Dwyer talks about the 
early warning signs; identifying those students who may be at 
risk of problems and, without doing any harm to those 
individuals, making referrals to appropriate services in the 
community.
    Mr. Tierney. Thank you very much.
    Mr. Mica. I thank the gentleman.
    Now, I would like to recognize the gentleman from Arkansas, 
Mr. Hutchinson.
    Mr. Hutchinson. Thank you, Mr. Chairman, and, hopefully, I 
won't take the entire allotted time, but I did have one area of 
inquiry.
    Dr. Chavez, I was reading the introductory information that 
has been provided. It is my understanding that your agency, the 
Substance Abuse and Mental Health Services Administration, has 
a staff of approximately 600? Is that correct?
    Dr. Chavez. That is correct.
    Mr. Hutchinson. And that your agency was created in 1992?
    Dr. Chavez. That is correct.
    Mr. Hutchinson. And, so, obviously, you had zero employees 
in 1992, and there are 600 now, and the responsibility is to 
administer a Federal Block Grant Program to the States?
    Dr. Chavez. That is one of our responsibilities.
    Mr. Hutchinson. And a Federal block grant--I mean, the 
whole idea of a block grant is that it is passed along to the 
State without extraordinary Federal strings? Is that correct?
    Dr. Chavez. Well, it is a little bit more than that, but--
can I correct something? Although we were created as a separate 
agency in 1992, SAMHSA's activities had been part of ADAMHA, 
which provided alcohol, drug, and mental health services. In 
1992, the Congress decided to take NIDA, NIAAA, NIMH and put it 
under NIH and take the, at that time, the prevention, the 
treatment, and the mental health services programs that were 
within ADAMHA and create a separate agency's AMHSA. The primary 
focus was on the service part and looking at the development 
and the implementation of the research.
    Mr. Hutchinson. How has the staff level grown in recent 
years?
    Dr. Chavez. Actually, that is a very good question, because 
it has not grown. In fact, right now, we are having tremendous 
problems in terms of trying to administer many of the programs 
because of a reduction in our work force.
    Mr. Hutchinson. Well, in 1992, obviously, you didn't exist 
prior to 1992. You were created in 1992, and you are saying 
that a number of different programs were combined? Is that 
correct?
    Dr. Chavez. That is correct. A number of programs were 
combined, and in the combination of those programs that created 
SAMHSA, many of those employees worked for NIMH; many of them 
worked for NIDA and NIAAA.
    Mr. Hutchinson. How many did you start with in 1992, with a 
combination of those programs versus the 600 today?
    Dr. Chavez. I believe it was about 700 in 1992.
    Mr. Hutchinson. Could you get me the information on that?
    Dr. Chavez. I certainly can.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3843.028
    
    Mr. Hutchinson. I know I am catching you cold on that, 
perhaps, and I would like to have an organizational chart for 
your present circumstance and then compare that to 1992. I 
mean, you ought to be applauded if you combined front office 
functions and reduced the number of employees, but it is 
still--I mean, I just don't understand, quite frankly. Six 
hundred employees sounds like an extraordinary number to 
administer a Block Grant Program, and I understand you have 
other responsibilities, but I either need to be educated or we 
need to look at it very closely. It seems like there is a lot 
of the money that should be going to the States to support 
these programs that is consumed at the staff level, the 
administrative level.
    Dr. Chavez. Yes, I would be very happy to provide that 
information for you, and I would like to also mention that in 
1996--in looking at SAMHSA and some of the programs there, we 
reduced from 22 offices in the administrative area to 7 
offices, and that was working very closely with Chairman 
Porter. So, we do have all that information; we will be very 
happy to supply you with that, because, as I indicated earlier, 
while 600 may seem a lot if you are just looking at a block 
grant, there are many other responsibilities that are a part of 
that. So, I would be very happy to submit that.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3843.029
    
    [GRAPHIC] [TIFF OMITTED] T3843.030
    
    [GRAPHIC] [TIFF OMITTED] T3843.031
    
    Mr. Hutchinson. I will look forward to that information.
    Dr. Chavez. Thank you.
    With that, Mr. Chairman, I yield back.
    Mr. Mica. Thank the gentleman.
    Now, I would like to recognize the gentleman from Georgia, 
Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Modzeleski, in your written remarks here--and I think I 
have been informed also in your oral comments--you talk about 
the role of FEMA, the Federal Emergency Management Agency. What 
do they have to do with this?
    Mr. Modzeleski. We have been working with the Federal 
Emergency Management Association on trying to develop a 
response, a FEMA-like response to crises such as occurred in 
Springfield, Paducah, Pearl. These are crises which are not 
Presidentially declared disasters but nevertheless affect the 
school system, and what we are trying to do is develop a 
response to enable those school systems to recover from rather 
tragic--
    Mr. Barr. And you think you can do this by studying how the 
Government responds to tornados? I mean, isn't dealing with the 
causes of violence in our schools, our families, our 
communities, and our businesses somewhat different from dealing 
with natural disasters?
    Mr. Modzeleski. Well, the answer--yes, we do think we can 
resolve this by looking at how a Government agency responds to 
tornados.
    Mr. Barr. Well, then maybe that is why we are not meeting 
tremendous success. Maybe you ought to look at this as a people 
problem, not as a natural disaster problem.
    Mr. Modzeleski. Let me explain, the FEMA-like response is 
not related to the prevention aspect. This is a very small 
part.
    Mr. Barr. I know.
    Mr. Modzeleski. This is the after effects.
    Mr. Barr. FEMA is not a responsive aid. They are not a 
preventive agency; you are.
    Mr. Modzeleski. Each of the districts--
    Mr. Barr. What does FEMA have to do with trying to resolve 
problems of violence in our schools?
    Mr. Modzeleski. We are basically looking at how FEMA 
responds to crises, how FEMA responds to disasters. Each one of 
the disasters, be it a tornado or natural disaster or the 
crises such as Springfield result in sufficient impact on the 
student population.
    Jamon Kent who is the superintendent of schools in 
Springfield, OR has said that his schools probably will not be 
restored to teaching and learning as they were prior to the 
incident a year ago without adequate resources and services in 
the area of mental health services, mental health crisis 
counseling for both students and teachers. And SERVE, the 
program which is in the--
    Mr. Barr. Are we witnessing school violence because there 
aren't enough counselors?
    Mr. Modzeleski. We may.
    Mr. Barr. Really?
    Mr. Modzeleski. We may.
    Mr. Barr. Maybe that is also why we are not seeing 
tremendous success. Do you think that is--because we don't have 
enough grief counselors, that is the reason why we are seeing 
violence in schools?
    Mr. Modzeleski. Well, there is a need for grief counselors 
and mental health crisis counselors. I think that there has 
been sufficient testimony between various House committees and 
Senate committees where there are people, experts--much more 
expert than I--that say there definitely needs to be a better 
interconnection and a better relationship between schools and 
mental health crisis counseling, and we do need more counselors 
in schools.
    Mr. Barr. Well, I suppose we can have a lot more 
counselors, but I don't think that is going to really get at 
the root problems, and, again, my impression has always been 
that FEMA is a reactive agency. After there has been a natural 
disaster, something over which mankind has no control, they go 
in and provide assistance, organizational skills to respond to 
an emergency that has already occurred--a natural disaster. I 
think, perhaps, if you all started looking at the problems of 
violence in our schools, not as a natural disaster that is 
beyond our control and look at yourself as a reactive agency, 
which is the model that FEMA provides and necessarily has to 
provide, maybe we would see more success. How many school 
murders committed with weapons took place in 1955?
    Mr. Modzeleski. We don't have that information.
    Mr. Barr. How about 1960?
    Mr. Modzeleski. That information is not available. If I 
could just comment on the collection of data--
    Mr. Barr. I mean, it is nice to go back a couple of years 
and say, ``Gee, there are more or less of this category of 
violence than there were a few years ago,'' but I suspect that 
if one looks at a longer term trend, that there might be some 
things that are a little bit more revealing than just looking 
and trying to make the current situation look favorable by 
looking at 1991 or 1992 or whatnot, and I don't think that the 
solutions are going to be terribly simplistic.
    Dr. Chavez, do you have any comments on this? Do you see 
particular enlightenment being provided by your work through 
FEMA?
    Dr. Chavez. Mr. Barr, that was a good very question in 
terms of the issues that you have raised. You are talking about 
the prevention as being a first line of defense, and we agree 
that that is very critical. However, when there are traumatic 
events--for example, a traumatic event might be a tornado, 
hurricane, et cetera, and the impact that has not only on 
children but also in terms of families and communities, that 
becomes very important in terms of the kinds of intervention 
that one must be involved in when there is a traumatic event.
    For example, our Center for Mental Health Services was very 
much involved when Hurrican Andrew struck Miami. We have been 
very much involved in many of these other FEMA-associated 
incidents in that we have brought in the mental health 
component after the fact for the trauma that exists. In 
addition to that, we have been able to do some very effective 
programming in terms of prevention.
    Mr. Barr. Mr. Chairman, I recommend that your next panel 
include somebody from FEMA. They might be able to help us solve 
the problem of school violence. I mean, this is amazing that we 
look to FEMA as the model for solving the problems of school 
violence.
    Dr. Chavez. Excuse me, Mr. Chairman, may I please respond 
to that if there is time?
    Mr. Barr. I yield back.
    Mr. Mica. The gentleman yields back.
    I think we covered all the panelists. I would like to--we 
have gone on for almost 2 hours with this panel or more, and I 
do thank you. I think we have raised as many questions as we 
may have had answered.
    We will, as I said, keep the record open, without 
objection, for 2 weeks, and we will be submitting additional 
questions on some of the programs and activities and other 
concerns from the members of the panel.
    So, with that, I would like to excuse both of our first two 
witnesses in this first panel and call our second panel which 
are State and local officials.
    We have the Honorable Charlie Condon, attorney general of 
the State of South Carolina, the Honorable Gary L. Walker, vice 
president of the National District Attorneys Association, and 
Chief Reuben Greenberg, the police chief of Charleston, SC.
    As I mentioned, this is an investigations and oversight 
panel of Congress. We do swear in our witnesses, which I will 
do in a moment. Also, if you have lengthy statements or 
additional information you would like to have made part of the 
record, we will do that. We would like you to try to keep your 
comments, if you could, to about 5 minutes. We are running a 
bit behind, but we do want everyone to have an adequate 
opportunity to participate.
    So, with that, welcome, our three panelists. If you will 
remain standing, and I will swear you in.
    [Witnesses sworn.]
    Mr. Mica. Thank you, and the witnesses answered in the 
affirmative. Welcome again, and I am pleased to recognize, 
first, the attorney general, the Honorable Charlie Condon. 
Welcome, and you are recognized.

STATEMENTS OF CHARLIE CONDON, ATTORNEY GENERAL, STATE OF SOUTH 
  CAROLINA; GARY L. WALKER, VICE PRESIDENT, NATIONAL DISTRICT 
  ATTORNEYS ASSOCIATION; AND REUBEN GREENBERG, POLICE CHIEF, 
                         CHARLESTON, SC

    Mr. Condon. Thank you, Mr. Chairman. It is certainly a 
pleasure to be here.
    I want to say, first, that I was, like I am sure you were, 
dismayed to hear about the shootings over in Georgia, but I was 
equally dismayed, really, to see the proposals that the Clinton 
administration made yesterday relative to school crime. They 
are proposing mandates and directives that I think are a recipe 
for disaster; not that they are not good ideas. In fact, in 
South Carolina, we are in the process or have already put into 
practice these ideas, but to have a single cookie cutter 
approach from the Federal Government, I think, will not work.
    I hope I don't get hissed out of this room, but as I am 
sure some do recognize--I hope they recognize--under our system 
of Government, the general government is the State government, 
and the Federal Government is supposed to be the Government of 
limited power. We are a Nation of 50 general governments and 1 
limited Government, not the other way around. Each individual 
State possesses the power to protect the safety of its 
citizens, whether that means the streets of the inner city, the 
neighborhoods of the suburbs or the classroom or the halls of 
our schools.
    Now, in this time when school violence is uppermost in our 
minds, what we need from the Federal Government are resources 
and support, not mandates and directives. In short, Washington, 
DC, can no better serve as the principal of Irmo High School in 
Lexington County, SC than it can walk the beat of a Charleston 
Street. The problem of school crime, which affects South 
Carolina differently from Florida and California, cannot be 
micromanaged from Washington, DC. Indeed, within the Palmetto 
State, South Carolina, different communities require different 
approaches. The same cookie cutter approach by the Federal 
Government to the school violence problem is most certainly a 
recipe for disaster.
    Now what does this mean specifically with respect to school 
violence? I must say, I was astounded to hear some of the 
figures that were bandied about by the first panel in terms of 
what is being spent today. I really do want to look into how 
those funds are being spent in South Carolina, particularly 
from what has been appropriated, and then from the standpoint 
as to what gets to the field. I am assuming that in our State--
it is a middle range population State--we must have millions 
and millions of dollars annually coming from the Federal 
Government for school safety. And I really want to see how 
those are being spent.
    But I do think you can help us with this: if you truly have 
the block grant made--and that is, as I understand what block 
grants are supposed to be, they are basically funds sent to the 
States to be spent without strings attached--that will work 
very, very well. We need funds to put school resource officers 
in every high school and middle school in South Carolina. Most 
importantly, we need Federal dollars to help us make sure that 
we have prosecutors both at the State and local level to 
prosecute school crime.
    In my view, what will work best with respect to the problem 
of school crime is the one approach that has always succeeded 
when we follow it, and it is this: it is tough, hard-nosed 
prosecutions of those who threaten the safety of our schools. 
While, certainly, resources, such as guidance counselors and 
psychologists, play an important role in assisting our 
students, the bottom line is that our schools are not different 
from society in general. If anything, schools, like our homes 
and places of worship, should be the safest places in our 
society. No serious offense should go unpunished.
    Now, there are and will always be certain students bound 
and determined to commit serious crimes which prevent the 
others from learning. I do think it is much, much worse today 
for a variety of other factors I want to allude to. For these 
offenders, the three P's instead of the three R's are 
appropriate--prosecution, punishment, and, when necessary, 
prison.
    We are putting this no-nonsense approach to work in South 
Carolina right now. As the chief prosecutor of my State, I have 
banned plea bargaining for all serious school crimes. Every 
school crime is now required to be reported to the attorney 
general's office. My office has a school crime prosecutor with 
strict instructions to followup on school crimes to see that 
our policy of zero tolerance is followed.
    We have also implemented a program, which I have stolen 
from my good friend, Chief Greenberg, to make sure that we get 
these guns out of the schools in South Carolina with a toll-
free tip line--1-877-SEE A GUN. A simple concept: confidential, 
toll-free, with a $100 reward for guns and explosive devices. 
We have in place a youth mentoring program. We have joined with 
the Governor of South Carolina, Governor Hodges, and the 
superintendent of education to co-chair a State summit on 
school violence.
    I am also a big believer in prevention, and we are 
implementing a comprehensive approach to prevention strategies 
that are attached to this testimony.
    But, in short--as I am pleased to see that you have already 
recognized the problem to some extent--the problem of school 
crime can never be solved by Washington, DC. Washington can 
help provide the resources and then really just get out of the 
way and let us do our jobs. In the end, no government--neither 
Federal, State, nor local--can alone diffuse the ticking time 
bomb with school violence.
    As always, the willingness of every person to be 
responsible for the consequences of his or her actions must 
serve as the foundation. Each parent--I want to emphasize 
parent--each mother and father, each student, each family, 
indeed, each citizen must take responsibility to shatter the 
culture of violence which today threatens our schools.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Condon follows:]
    [GRAPHIC] [TIFF OMITTED] T3843.032
    
    [GRAPHIC] [TIFF OMITTED] T3843.033
    
    [GRAPHIC] [TIFF OMITTED] T3843.034
    
    Mr. Mica. Thank you for your testimony.
    I would like to recognize the Honorable Gary L. Walker, 
vice president of the National District Attorneys Association.
    Mr. Walker. Good afternoon. I would like to introduce 
myself. I am the elected prosecutor in Marquette County, MI. I 
want to thank you on behalf of the National District Attorneys 
Association.
    Mr. Mica. Excuse me, Mr. Walker, could you pull that mic up 
as close as possible?
    Mr. Walker. OK. I want to thank you on behalf of the 
National District Attorney's Association for the opportunity to 
give our perspective on youth violence and crime in this 
country. I would also, Mr. Chairman, like to enter into the 
record some more lengthy written remarks.
    Mr. Mica. Without objection, so ordered.
    Mr. Walker. And I also have for the panel some copies of 
the National District Attorneys policy positions on youth crime 
and violence.
    Mr. Mica. That also will be included, without objection.
    Mr. Walker. I have served the people in Marquette County as 
their prosecutor for the last 25 years. I am currently a vice 
president of NDAA, and I co-Chair the juvenile justice 
committee for that association. The views I express today 
represent the views of that association and of local 
prosecutors across the country.
    So that you can place my comments in perspective, let me 
give you a brief description of my jurisdiction. Marquette 
County is located in Michigan's upper peninsula on the shores 
of Lake Superior. It is a rural area. We have a population, 
according to the last census, of approximately 70,000 people. 
The county encompasses 1,800 square miles, so it is a little 
larger than the State of Rhode Island. We do not experience a 
crime rate which is comparable with large urban areas, but 
juvenile crime is still a major concern.
    Last year, four middle school students brought a hand gun 
to school with the stated purpose of stealing a teacher's car 
and driving to Canada and committing further armed robberies 
along the way. Fortunately, the teacher, when confronted by the 
student with a gun who demanded his car keys, disarmed him, and 
no one was injured.
    Last year, we had 12 students who were expelled for 
bringing weapons to school campuses. Just since the tragedy in 
Littleton, CO, we have experienced instances of threats made by 
school students which specifically refer to that tragedy and 
promise similar violence.
    I can also report that my discussions with prosecutors 
across the country indicate that copy cat behavior is common, 
if not epidemic. Last weekend, four students, ages 12, 13, and 
14, were arrested in Port Huron, a community approximately 60 
miles from Detroit. The arrest thwarted a plan to bring weapons 
to a school assembly and then open fire with the avowed purpose 
of creating more harm, more death than Littleton, CO. We are 
all aware, of course, of the tragedy in Atlanta last night. 
School violence is not simply, however, the recent tragedies 
that we have seen; it has been going on--as I think several of 
the panel members have indicated--for some time.
    Immediately after the incident in Columbine, our community, 
law enforcement, school officials, and representatives of our 
local media met to examine the situation. Unfortunately, our 
conclusion is that ``It can't happen here,'' is not a realistic 
appraisal. We are attempting to put together a program designed 
to involve schoolchildren in monitoring their own behavior and 
that of their peers. We hope to provide the children with a 
sense of ownership and control in their school environment and 
enlist their aid in the prevention of anti-social behavior in 
their schools.
    It is inevitable that society look for answers in the wake 
of these tragedies. There is enough blame to go around--guns, 
music, video games, movies, parents, schools, the Internet, and 
according to one article in the Wall Street Journal, the courts 
are responsible. It strikes me that there has been an obvious 
omission. The perpetrators of these horrible crimes are 
responsible. Society should, and indeed must, express a sense 
of moral outrage at the individuals who committed these acts. 
While it is necessary to search for the causes, we must not 
excuse the behavior.
    ``I am depraved on account of I am deprived,'' goes that 
song from West Side Story. If we expect our children to become 
morally grounded, it is necessary that we demand accountability 
for immoral and anti-social behavior. While we search for 
answers, we must condemn in the strongest ways possible the 
behavior, and demand individual accountability and 
responsibility. It is important that we not overlook the fact 
that these types of violent crimes warrant strong and swift 
response by our criminal justice system.
    The NDAA recognizes and supports the long-standing 
tradition in our country of the States adopting and managing 
their own criminal laws and juvenile justice systems. We concur 
entirely with the attorney general from South Carolina. Perhaps 
the most important thing that the Federal Government can do in 
addressing juvenile violent crime is to provide adequate 
funding for programs aimed at crime prevention.
    The NDAA believes very strongly that funding proven crime 
prevention initiatives is necessary. Programs proven to keep 
kids from becoming criminals in the first place are some of the 
most powerful weapons in law enforcement's arsenal against 
crime. Such programs include those aimed at providing early 
child care, preventing child abuse and neglect, and ensuring 
that the quality of child care in afterschool activities is 
available for America's youth.
    The importance of those programs and their role in reducing 
criminal behavior is supported by scientific research. We must 
do everything we can in society to promote the positive assets 
of our youth. There are far more good kids in this country who 
are positive role models in their communities than there are 
delinquents. We must mobilize these youth to promote positive 
assets and use these children as resources to help us identify 
problem kids in the schools and communities.
    There are no simple solutions to this problem. Traditional 
law enforcement efforts must continue with new tools to deal 
with today's violent juvenile criminals and to effectively deal 
with the non-violent offenders before it is too late. Violent 
juvenile criminals must be prosecuted and dealt with severely 
by our criminal justice system. We must send a clear message 
that violence will not be tolerated. However, the long-term 
solution requires that we step back and look at the underlying 
causes of juvenile crime, and mobilize everyone in this country 
to get involved and work together to address these issues.
    Thank you for permitting me to appear and to express the 
views of the National District Attorneys Association.
    [The prepared statement of Mr. Walker follows:]
    [GRAPHIC] [TIFF OMITTED] T3843.035
    
    [GRAPHIC] [TIFF OMITTED] T3843.036
    
    [GRAPHIC] [TIFF OMITTED] T3843.037
    
    [GRAPHIC] [TIFF OMITTED] T3843.038
    
    [GRAPHIC] [TIFF OMITTED] T3843.039
    
    [GRAPHIC] [TIFF OMITTED] T3843.040
    
    [GRAPHIC] [TIFF OMITTED] T3843.041
    
    [GRAPHIC] [TIFF OMITTED] T3843.042
    
    [GRAPHIC] [TIFF OMITTED] T3843.043
    
    [GRAPHIC] [TIFF OMITTED] T3843.044
    
    Mr. Mica. Thank you for your testimony.
    I would like to recognize now Police Chief Greenberg from 
Charleston, SC. Welcome, sir. You are recognized.
    Mr. Greenberg. Thank you. I want to thank the Subcommittee 
on Criminal Justice, Drug Policy, and Human Resources--
    Mr. Mica. Chief Greenberg, you are going to have to pull 
one of those up real close. Thank you, sir.
    Mr. Greenberg. Thank you. And I want to thank the chairman 
for inviting me to be present here today.
    I hope, this morning, to offer a suggestion or two that 
will help to address the serious and growing problem of youth 
violence in our country. We are all familiar with the problems 
that have occurred recently in Jonesboro, AR, Pearl, MS, 
Paducah, KT, Springfield, OR, Littleton, CO, and now in 
Georgia. These situations were of such a massive nature and had 
such a devastating effect on whole communities that almost 
everyone is aware of them. During the past decade, however, 
significant violence has been felt in even more communities 
around our country. There have been thousands of instances 
where young people, especially young black men, have been 
killed or seriously injured by other young men or teenagers 
during altercations of one kind or another involving firearms.
    While these deadly altercations have, for the most part, 
been on a one-to-one basis--perpetrator and victim--the decade 
long and cumulative effect of these incidents has had an even 
greater impact on the everyday lives of our citizens. In many 
cases, there have been victims who were not involved, and 
unintended victims but who have, nonetheless, been killed or 
seriously injured during these encounters. Many of the 
incidents have taken place in our urban core areas whereas 
others, as in the case of the recent school shootings, have 
occurred in suburban and rural areas.
    A number of approaches designed to address these problems 
have been proposed. Most of the approaches have focused on 
increasing penalties for use or possession of firearms by young 
people. Other approaches have targeted those who sell firearms 
to underage persons or those who leave firearms in places where 
they are unreasonably accessible to unauthorized persons.
    There has been some degree of success achieved through 
these means. We have shared in that success in Charleston 
where, as a result of cooperation between school officials, law 
enforcement, prosecutors, courts, and the business community, 
we have avoided much of the violence that other communities 
have suffered.
    It has become clear in our community that in order to 
curtail school violence involving firearms, it is necessary to 
discourage people from bringing firearms onto school property. 
In other words, in order to get the guns out of the schools, it 
is essential to get the people with the guns out of the 
schools.
    The Charleston County school district has adopted a zero 
tolerance policy against guns in the school environment. The 
school administration actively supports allied law enforcement 
efforts to rid schools of guns and the people who possess them. 
The district immediately suspends student violators and 
recommends them for expulsion. In addition, in cooperation with 
the local Crime Stoppers Program, an anti-illegal gun 
initiative dubbed ``Gun Stoppers'' operates to provide 
immediate rewards to those persons who anonymously report the 
presence of firearms and the people who possess them. Gun 
Stoppers provides, in many cases, immediate $100 rewards to 
persons who report illegal firearms. The money for this program 
comes from three local civic-minded businessman interested in 
keeping firearms out of the hands of young people.
    Most firearms on school grounds, and indeed other locations 
where it is unlawful to possess firearms, are introduced by 
young people who believe that the possession of a firearm on 
their person provides them with a high level of social prestige 
that they can enjoy amongst their fellow students. While these 
students may sometimes claim that firearms are necessary for 
their safety, the actual reason a firearm is carried to school 
is to obtain the peer social prestige of being tough and 
fearsome. In order to appear tough and fearsome, they believe 
it necessary to show off their firearm as often as possible. 
The more often the firearm is displayed, the more prestige 
accrues to the person possessing the gun.
    The Gun Stoppers Program offers a $100 reward in order to 
reduce the propensity to show off the firearm due to the fear 
of having someone report the gun possession to the school 
officials or to the police. This reporting is confidential and 
in most cases the reward is immediate, often the same day that 
the illegal gun is located. Thus, the situation is changed to 
the extent that the more the gun is displayed, the more likely 
someone will report the presence of the gun thereby seeking a 
reward. Consequently, showing off the firearm, even to close 
friends, is likely to lead the illegal firearm being seized and 
its possessor arrested. In short, the successful strategy has 
been to take the illegal gun possession, which had been deemed 
to have been desirable, and transforming it into something that 
is highly risky and undesirable. If it is too risky to display 
a gun, there is little reason to have it.
    The results of the Gun Stoppers Program in Charleston and 
the surrounding five counties where it operates is that over 49 
guns have been confiscated and 50 arrests have been made for 
illegal gun possession, primarily in schools. All of these guns 
were taken into custody before they were fired. It is important 
to note that the Gun Stoppers Program is not an anti-gun 
program; it is an anti-illegal gun program.
    While the vast majority of guns have been removed from the 
school grounds and property, guns have also been removed from 
playgrounds, street corners, bars and taverns. Not all persons 
who have been arrested have been prosecuted. A 9-millimeter, 
fully loaded handgun was reported in the possession of a 6-year 
old while he was riding on a school bus. The 6-year old was not 
prosecuted, but we were still able to remove a gun off the 
school bus. Removing guns from school buses is a good thing to 
happen, whether anyone goes to jail or not.
    As a law enforcement officer, I have often wondered why 
some school authorities have been so adamant about trying to 
maintain in school juveniles guilty of possessing a gun in the 
school environment. I recognize that it is our society's desire 
to provide an education to everyone. However, there must be 
some recognition that not everyone can, in the final analysis, 
be educated if that person creates an environment that markedly 
diminishes the security of the entire school. Possessing a 
firearm in schools and playgrounds must be viewed as 
representing the very front rank of danger to larger 
communities. Those possessing such firearms should be denied 
the opportunity to victimize or threaten law-abiding society.
    It has become clear in recent years that American society 
has changed with regard to both its glorification and 
toleration of violence. Movies and visual images have become 
more and more violent. Actual incidents of violence have also 
become increasingly violent. Attacking the instruments of this 
violence--that is firearms, bombs, and knives--is not the way 
to go toward reducing the problems of violence that face us. 
Indeed, it is doubtful that any implementation of external 
control measures can succeed in removing or rescuing us from 
the danger that faces us. It is my belief that our current 
problems must, in the end, be overwhelmed using internal social 
controls that were once implemented by a host of societal 
influences, including the family, churches and synagogues, 
neighborhoods, youth organizations, and voluntary restraint by 
entertainment and literary sources in our society.
    I believe that we can discourage increasing violence and 
disrespect for human life and each other in precisely the same 
way that we have acted to encourage it. We must again seek to 
restrain ourselves and shun the tendency to become more and 
more sensational in portraying actual and creative violence in 
our society. We did not come to our present situation all at 
once. We lowered ourselves to it bit by bit over time. In a 
similar way, we can reverse ourselves and move our society 
toward a more wholesome stance that can again give us a society 
where positive and valued individual and community 
relationships can be fostered. Increased enforcement can help 
us start this process by halting our ``anything goes'' approach 
to happiness and responsibility.
    We should not be surprised that we have come upon the 
natural consequences of our lack of restraint. Both action and 
inaction have consequences. Guns are not new to American 
society; they have been long with us. But guns do, however, 
exhibit some change. They are more powerful and have greater 
capacity for destruction. However, they still require a human 
being to activate them. What has really changed is American 
society. We no longer interact with one another nor respect 
each other in the ways we once did. It is in this area that I 
believe we need to rededicate ourselves and our communities.
    Many schools in our country have regular full-time police 
officers assigned for security purposes and to serve as 
resource officers. One such police officer was assigned to 
Columbine High School in Littleton, CO and was present when the 
killing spree there began. This officer reportedly exchanged 
shots with the suspects in that incident. I believe that it 
could be beneficial for some schools to have such an officer 
present, not only to provide security but also to interact with 
the students in a host of positive ways. Few schools or law 
enforcement agencies can afford to bear the cost of assigning 
officers to such duties. The Federal Government could assist 
schools by helping to provide funds for officers for school 
security and safety.
    In our jurisdiction in Charleston, there has been a 
heightened need for security in area schools primarily as a 
result of the news of the Littleton, CO shootings and bombings. 
Several students claiming to be preparing to bomb or shoot up 
their schools have been arrested and charged with making 
terrorist threats. The presence of these school security and 
resource officers has been of considerable value in helping to 
ensure parents, school officials and students a safe 
educational environment. The need for this kind of safety 
assurance will undoubtedly continue long past the media 
interest in this headline story.
    Mr. Mica. Chief, if you could begin to summarize--we are a 
little bit over--I would appreciate it.
    Mr. Greenberg. Yes, sir. If I could have 40 seconds?
    Mr. Mica. Oh, go ahead, just begin to summarize, if you 
could.
    Mr. Greenberg. Thank you. The school security officers can 
also be assigned to perform protective roles in area parks and 
playgrounds during the summer when school is out, thereby 
permitting the community to extend its protection beyond just 
the school itself and reach other areas where children tend to 
gather and play.
    One of the many negative influences affecting the 
educational environment is the diminishing role and influence 
that teachers and principals exert in today's schools. While 
teachers and principals are expected to exercise increasing 
amounts of responsibility over the educational environment, 
they are permitted less and less authority to act in reasonable 
and responsible ways.
    Commentators have enumerated the many so-called warning 
signs that were exhibited by the suspects in the Columbine 
shooting. However, had any school official acted to interfere 
or intervene with respect to those warning signs, they most 
certainly would have been subjected to allegations of bias, 
insensitivity, and even overreacting in reference to them. The 
roles of school officials have been so diluted that they dare 
not even refer to their students in any way other than by using 
the most laudatory terminology. The value of a student's self-
esteem is so highly regarded that even the most remotely 
delivered statement suggesting a need for any improvement or 
reflection by a student is almost universally discouraged. 
Almost no teacher or administrative discretion and deference 
remain or is appreciated. We can't have it both ways. We cannot 
hold them responsible while at the same time denying them the 
authority to act.
    I want to thank the committee for its indulgence and 
attention. Thank you very much.
    [The prepared statement of Mr. Greenberg follows:]
    [GRAPHIC] [TIFF OMITTED] T3843.045
    
    [GRAPHIC] [TIFF OMITTED] T3843.046
    
    [GRAPHIC] [TIFF OMITTED] T3843.047
    
    [GRAPHIC] [TIFF OMITTED] T3843.048
    
    [GRAPHIC] [TIFF OMITTED] T3843.049
    
    [GRAPHIC] [TIFF OMITTED] T3843.050
    
    [GRAPHIC] [TIFF OMITTED] T3843.051
    
    [GRAPHIC] [TIFF OMITTED] T3843.052
    
    Mr. Mica. Thank you for your testimony, and I am going to 
add Dr. Lawrence Sherman, Chair of the Department of 
Criminology and Criminal Justice at the University of Maryland, 
to this panel, and I will swear you in. I know you have a 
scheduling conflict.
    [Witness sworn.]
    Mr. Mica. The answer is in the affirmative, and you are 
recognized, sir, for 5 minutes.

STATEMENT OF LAWRENCE SHERMAN, CHAIR, DEPARTMENT OF CRIMINOLOGY 
          AND CRIMINAL JUSTICE, UNIVERSITY OF MARYLAND

    Mr. Sherman. Thank you, Mr. Chairman.
    I appreciate the opportunity today to urge the Committee on 
Government Reform to reform three aspects of Federal 
legislation with respect to school violence.
    First, is to put crime prevention money where the crime is 
and not just distribute it on the basis of population. Second, 
is to move the Safe and Drug Free Schools Program away from 
programs that don't work and to invest in programs that do, 
specifically policing in high crime hot spot areas where most 
children are at risk of being murdered and seriously injured by 
gun violence. Third, to launch a crash effort to determine 
whether large schools are causing youth violence all over the 
country by testing the expensive but promising solution of 
shrinking schools of 2,000 and 3,000 students down to 500, 
which may have been associated with Columbine and some of the 
other killings.
    Now, in relation to the first point, Mr. Cummings has 
already suggested to you that the vast majority of children who 
are murdered are killed in inner city, concentrated poverty 
areas where there is very little attention to the thousands of 
deaths that occur in those places each year. That is also where 
the school violence in this country, as reported by the Bureau 
of Justice Statistics, is concentrated.
    If we look at how Federal aid gets allocated per homicide, 
what we find is that low homicide jurisdictions, like the State 
of Vermont, are getting about $1 million in Federal aid per 
homicide, whereas high homicide districts, such as Mr. 
Cummings' in Baltimore, are getting about $5,000 per homicide, 
and I think it is difficult to justify spending 20 times more 
per homicide for citizens in one part of the country than in 
another part of the country.
    It is supposed to be dealing with a problem. The problem in 
the case of violence against kids is that they are 44 times 
more likely to be murdered per minute outside of school than 
they are in school. So, that if we really wanted to make our 
children safe from being murdered, we might want to move them 
all inside the schools rather than be focused on the schools as 
the site of the murders. Even though some rare events do happen 
and attract a lot more attention, it is not the substantive 
focus of the problem.
    The problem is, in the inner city poverty areas where are 
guns are combined with hopelessness and where we have 
astronomically high homicide rates in general, those can be 
dealt with under my second proposal, which is to take the $550 
million of Safe and Drug Free Schools money and to redirect it 
away from bad decisionmaking by the 15,000 local education 
authorities in this country that have wasted that money--$6 
billion of it--since 1986 on programs like magicians, concerts, 
and lectures on how Dillon Thomas killed himself by drinking 
too much at $500 a lecture. The waste in that program is all 
the more regrettable because if that money had been spent for 
additional police patrols in high crime hot spot areas where 
demonstrated projects to get guns off the street have reduced 
gun injury and homicide, if that money could be directed in 
that way, I think that the Federal taxpayer would be getting a 
lot more prevention of injury to children than we have gotten 
so far for that $6 billion to date.
    But, third, to relate it to the recent tragedy in 
Columbine, I think it is also possible to take part of the Safe 
and Drug Free Schools money and to invest it in a way that only 
the Federal Government can invest it. The $550 million is a 
drop in the bucket compared to total Federal, State, and local 
funding for education in this country, which is in the range of 
$300 billion a year. What we don't know in that spending is 
what price we are paying for the alleged efficiency of having 
these very large high schools where kids are anonymous, where 
cliques rule the school, much like the cliques rule the prison, 
where the principal of the Columbine High School had never even 
heard of the Trench Coat Mafia prior to the shootings even 
though it had been in the yearbook the year before this 
happened, which I think reflects the fact that he is dealing 
with paperwork and administration and all of the red tape that 
is involved in managing such a very large complex.
    The research shows that a coherent school where the 
teachers know the students and where the students feel a sense 
of identity are places that have much lower levels of violence. 
We don't know whether size causes those lower levels of 
violence, but it is a reasonable hypothesis; all of the 
evidence is consistent with it. If we were to take a school 
like Columbine and break it up into four or five small schools, 
I think that we would find reduced levels of alienation, of 
anger, and ultimately of violence. That might be the policy 
that the Federal Government can help the local education 
authorities in this country achieve.
    I think, in summary, the fact is, we are spending enormous 
amounts of money trying to prevent youth violence, and we are 
dissipating it in small amounts, and the majority of the school 
districts are getting less than $10,000 a year. You can't do 
anything meaningful with that money except what I call symbolic 
sport, which is to say that we are spending money on the goal, 
but we are not even doing anything that is showing evidence of 
affecting the goal. It is rather like building a dam in 
somebody's district by getting the contract, talking about it, 
but then the dam never gets built, and I am afraid that is the 
way most of the Federal money spent for this purpose now is 
being allocated. If it was redirected to policing or to 
critical research policy questions, like school size, I think 
we would be getting a lot more bang for the buck.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Sherman follows:]
    [GRAPHIC] [TIFF OMITTED] T3843.053
    
    [GRAPHIC] [TIFF OMITTED] T3843.054
    
    [GRAPHIC] [TIFF OMITTED] T3843.055
    
    [GRAPHIC] [TIFF OMITTED] T3843.056
    
    [GRAPHIC] [TIFF OMITTED] T3843.057
    
    Mr. Mica. Thank you. I think we have had an opportunity to 
hear from all of these four witnesses.
    I just have one or two quick questions. Federalization of 
some of the crimes that are attendant to school violence, what 
is your position on that, Mr. Attorney General?
    Mr. Condon. I would be very much against that. I do think 
when you look at the proper role of the State versus the 
Federal Government, to Federalize, where would you start, 
really, and where would it end? In my own mind, in my home 
State, with all due respect to the moneys that are spent on 
Federal courts, I can just see these school thugs going through 
these great halls of marble and mahogany and the system is not 
really handling them. I do think if you can give us some 
resources in the State system, I really feel like--I would like 
to hear his view--I think that is the way to go.
    Mr. Mica. I think, Dr. Sherman--I don't want to take any of 
the words out of context--but we are saying that the dollars 
that we have, try to expend them for enforcement and prevention 
and programs where they are needed where you have the highest 
incidents, and that is not being done now. Is that correct?
    Mr. Sherman. That is absolutely correct, Mr. Chairman.
    Mr. Mica. OK, and do you agree with that?
    Mr. Condon. Yes, yes. He is talking about what I had 
learned in terms of so many Federal dollars being spent. As I 
understand what he is saying in terms of--we are not talking 
about sending the FBI into these school district--he is talking 
about block granting it and getting police officers on the 
streets, school resource officers, and things of that nature; 
excellent idea.
    Mr. Mica. What do you think, Chief?
    Mr. Greenberg. Yes, I certainly would agree with that. As 
an operating chief of police today after Littleton, CO, the 
thing that people want is to feel assuredly safe in their own 
schools. In this country, that has generally been the case, but 
even though we have had no incidents in Charleston like this, 
people read the newspapers and see what is going on, and people 
simply don't feel safe in their school environments anymore. We 
have to react to that by making it possible for them to feel 
safe, and we do that by adding people who are trained to make 
them safe, to see to their safety in that particular 
environment.
    Mr. Mica. Thank you. Finally, Mr. Walker, how do you feel 
about the Federalization of these acts or crimes?
    Mr. Walker. With all due respect to the Federal Government, 
which has some excellent assistant attorney generals and U.S. 
attorneys, the Federal system is simply not designed to handle 
youth crimes. The last time that I checked, there was something 
like 200 secure beds available federally for juveniles. The 
States have handled it. I think the attorney general from South 
Carolina is correct. I think that is the appropriate place 
legally. I also think it is the appropriate place practically. 
I do not believe that should this Congress pass Federal 
legislation dealing with school violence, that it will make a 
lot of difference. It will be symbolic, but I do not believe 
that it will be used effectively. I think the States are much 
more effective in dealing with this kind of problem.
    Mr. Mica. Thank you. I would like to yield now to Mrs. 
Mink.
    Mrs. Mink. Thank you very much.
    The Department of Education spokesman earlier stated that 
in 90 percent of the schools, there are no incidents of serious 
youth crimes leaving, therefore, the conclusion that in 10 
percent of the schools they do have incidents of serious crime.
    Dr. Sherman points out that most of the crime affecting 
youth in our society is in the inner cities. My question is, 
the formula and the distribution of Federal funds under the 
Safe Schools Act is done on the basis of distribution by 
population. What is your opinion, then, following Dr. Sherman's 
comments, that that funding that is now available be 
concentrated on the 10 percent of the schools that have 
evidenced serious youth crime and concentrate the dollars that 
we are allocating--some $500 million--to just those areas and 
leave out the other 90 percent? Or is there any merit in the 
idea that 90 percent of our schools have avoided the serious 
problems because they have had some help, some support from the 
Federal Government in the Safe Schools Act?
    Would any of the three law enforcement people like to 
comment on that? I know this is what Dr. Sherman said, but I 
would like to have your comments.
    Mr. Walker. I am not so sure that Dr. Sherman is not 
correct. I think for the Safe--if we are dealing with Safe 
School money and the primary concern is money to our schools, 
it makes sense, I think, to put meaningful money where the 
problems exist most. I would, however, quickly add that it is 
my position, personally, as a prosecutor of 25 years, and the 
position of the National District Attorneys Association, that 
there is a not only a role for the Federal Government but I 
think a critical one in dealing with prevention, and prevention 
doesn't mean giving money to a high school to prevent violence. 
Prevention means dealing with young children--people who are 
age zero to 2, zero to 6.
    There are some proven programs that currently exist. The 
University of Colorado Center for Violence Prevention has 
published an entire series that I would urge this panel to 
access. There are programs that have--for example, the Early 
Childhood Nurse Visitation in Elmyra, NY. It is a 15-year 
longitudinal study. We put home nurses in at-risk families. We 
reduced the number of delinquency referrals 15 years later for 
those children by 50 percent.
    So, while I think that if you are dealing specifically with 
school violence money, it, to me, only makes sense to place it 
where that violence is occurring, but I think you need to step 
back. If you are going to deal with the problem not as a band-
aid but for a long-term solution, I think the way you deal with 
it is to prosecute it now, because we must, and try to prevent 
it in the future.
    Mr. Condon. One observation I would make, too, is I would 
look behind that definition of what they consider serious 
school crime, because I have a hard time, based upon my 
experience, believing that only 10 percent of the schools have 
serious crimes, not the other 90 percent. I am assuming, within 
that definition, they exclude assaulting teachers; they exclude 
drug trafficking; they exclude bringing weapons to school, and 
I think you would have to include those.
    Mrs. Mink. Chief, do you have any comments?
    Mr. Greenberg. Yes, I believe that there are really two 
things. It seems that we have a short-term solution--when I say 
short term, I am talking about the next 5 or 6 years, probably 
no more than 10 years--and then the long-term solution. A long-
term solution, in my judgment, has to do with the schools, 
themselves, and the kind authority and independence that 
schools, teachers, and administrators are given to run schools. 
They had that authority once in our country, and it just 
virtually disappeared. It has been taken away from them bit by 
bit through a variety of different means.
    With respect to the police, we can have some immediate 
impact upon safety in schools until other kinds of things our 
society needs to do will finally be able to have an effect, 
including greater authority and independence for school 
officials.
    At the same time, we have to change our society as to the 
kind of violence, the kind of external stimuli the students and 
all of us receive almost every day, if not constantly all the 
time. These things are going to have to be addressed, as well. 
We can't separate what we see and what we hear from what people 
eventually are going to do.
    Mrs. Mink. Thank you, Mr. Chairman.
    Mr. Mica. Mr. Barr, you are recognized.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Chairman, I would like to commend you for pulling 
together this panel and to commend the four panelists. It has 
been very refreshing.
    I had been somewhat rude, though, reading their statements 
as they have been talking, but their statements are 
magnificent, because they reflect common sense, real life 
experiences, they are to the point, and they are not 
bureaucratese. So, I haven't been rude not listening to you 
all--I have been--but I really have been reading your written 
presentations, and I really do appreciate them. There is a lot 
of good information in here.
    I appreciate a couple of things. For example, Mr. Condon, 
you said both in your oral testimony as well as in your written 
statement that, ``No serious offense in a school should go 
unpunished.'' I must say parenthetically that that thought--not 
regarding schools but certain other locations--crossed my mind 
during the impeachment proceedings, unfortunately, but results 
don't reflect that crimes in certain places should go 
unpunished.
    But you said that--the notion that you are talking about 
here I think reflects the fact that people generally, and I 
suspect school kids also, they do pay attention to what goes on 
in the world around them. They do notice if people don't get 
prosecuted for crimes; that sends a certain message to them, I 
suspect. And that is why I think you all are saying something 
very important, that whether it is role models that we look at 
for our children or whether or not we, as adults, are 
consistent in enforcing the laws. These things do have an 
impact on the thought process that goes through our children. 
For example, when you talked, Mr. Condon, about banning all 
plea bargaining for serious school crimes, apparently you are 
serious about it.
    I was very distressed, both as a former U.S. attorney as 
well as a parent and as a legislator, to see, for example, that 
this current administration, the current Attorney General, 
specifically changed the policy of the prior Attorney General, 
Mr. Thornberg, who said gun crimes are not to be plea bargained 
down. That was his specific directive to U.S. attorneys 
reflecting his view and the view of the prior administration 
that serious gun offenses should not go unpunished and that 
prosecution, punishment, and prison are the three P's of a 
policy. Then when Attorney General Reno came in, there was a 
specific directive to U.S. attorneys to take the shackles off. 
It said, basically, go ahead and start plea bargaining these 
cases down.
    We also see, I think, something important for people who 
are concerned about prosecuting school crime, in particular, 
and the lack of interest by the Federal Government--and I 
understand what you are saying and agree with you also that the 
Federal Government prosecution of violent crimes should not be 
the tail wagging the dog. The point, though, that I am making 
here and I think that you are also, is that if we do have 
Federal gun laws and Federal laws with regard to bringing 
firearms onto school property and we don't prosecute them, then 
that sends a certain message.
    For example, in 1996, there were only four Federal 
prosecutions of the Federal law prohibiting possession or 
discharge of a firearm in a school zone. That shot up to five 
prosecutions in 1997 and made a quantum leap to eight in 1998. 
And yet, that is completely ignored by the President when he 
challenges this and talks about thousands of cases of this.
    If you could just comment briefly, maybe the rest of the 
panel if you have a chance, on the need and the importance of 
consistency in prosecution and the message that inconsistent 
leniency, for example, in Federal prosecution sends to our kids 
and our school administrators.
    Mr. Condon. I certainly agree with your comments. I am sure 
you are aware of the work of the U.S. attorney in Richmond, VA 
with Project Exile--
    Mr. Barr. An excellent program. We are told that it is 
being--tried to be deep-sixed by the attorney general.
    Mr. Condon. It does work. And, again, I am not against, and 
I don't think anyone here is against prevention strategies and 
all the things that we need to be talking about, but at the end 
of the day if someone commits a serious crime, there has to be 
accountability. If there is not, word spreads that you can get 
away with it; it is not so bad, and you lose all the deterrent 
value that is there. And kids know--in talking to school 
children in our State, that is one of the keys that we find in 
talking to them, that those that, frankly, break the rules or 
commit the crimes, there needs to be a very serious sanction 
imposed.
    Mr. Barr. I appreciate that.
    Mr. Walker, I would like to commend you not only for your 
prosecutorial work but for your work with the National District 
Attorneys Association, and a former colleague of mine from my 
home county, Todd County, Tom Sherrin, served I think with 
great distinction, as you do, as head of that organization.
    Mr. Walker. I know Tom very well. Mr. Barr, I would like to 
indicate that I think that the--clearly, the message has to be 
consistent; that if there is a crime, there needs to be 
accountability and responsibility. If we don't do that, I think 
we lose the entire purpose of the criminal justice system. 
However, I wonder--I know that the numbers of Federal gun 
prosecutions are very, very low. I have had several incidents 
in Marquette where guns have been present in schools. My office 
has dealt with those, because in each case those have been 
juveniles, and, frankly, the Federal system simply does not 
have the ability to--
    Mr. Barr. Excuse me, Mr. Walker. I have been very, very 
nicely admonished by the chairman that we have votes on the 
floor, and I know that we have one other member that might have 
a quick question. I appreciate very much what you are saying. I 
am sorry we don't have the time to go into it as well as Chief 
Greenberg and Dr. Sherman, I enjoyed your comments. I think 
they are very, very appropriate, and if you all have any 
additional information, I would welcome it both personally and 
I know the chairman would also, to assist us in our work.
    Mr. Mica. I would like to thank you. I appreciate your 
willingness to yield.
    Mr. Tierney, you are recognized.
    Mr. Tierney. Thank you, Mr. Chairman. Thank you, Mr. Barr, 
and thank you, gentlemen, for your testimony.
    Mr. Condon, let me ask you, it seems to me from looking at 
your testimony, that you are not particularly pleased with the 
Federal Government money that comes together with any 
direction. Is that a fair statement?
    Mr. Condon. Well, maybe you can educate me. I have dealt 
with Federal grants and received Federal grants, and it seems 
to me there are so many strings and paperwork attached that I 
think, ``Gosh, do I want to do this?'' I understand you have a 
block granting process.
    Mr. Tierney. No, no, I hear what you are saying, I just 
wanted to make that clear. I am looking and the information 
tells me that South Carolina has run a surplus in its State 
budget this year? And run a State surplus in the last couple 
years? Is that right? I mean, you are there in South Carolina; 
I am not.
    Mr. Condon. I think South Carolina, like most States, is 
running surpluses now.
    Mr. Tierney. So, why don't they spend their money on a 
particular need and just keep the Federal Government out of it 
altogether?
    Mr. Condon. Well, with all due respect to the Congressman, 
it is our money, too, that you have got.
    Mr. Tierney. Well, it is, but I am saying if you think that 
the local folks could do a better job with it--that is surplus 
money--then you people won't have to pay as much in Federal 
taxes.
    Mr. Condon. Well, I would be in favor of tax cuts, but, as 
far I can tell, it never happens up here, and since you are 
going to spend it--aren't you going to spend it?
    Mr. Tierney. Well, I suspect that if there are needs, then 
we are going to spend it, but you have got to tell me you can 
take care of this particular need with your own money you have 
got sitting around down there.
    Mr. Condon. Well, I think you all have got money sitting 
around, with all due respect, and I--
    Mr. Tierney. Let us just stay with the money that is 
sitting around in South Carolina. You are going to have a 
surplus. Why not apply that to an area where you think that the 
Federal strings are too restrictive?
    Mr. Condon. Well, we are, in fact, arguing for that, and it 
is falling upon some deaf ears.
    Mr. Tierney. Well, I hope you win.
    Mr. Condon. But if you don't spend the money--
    Mr. Tierney. Let me ask another question.
    Mr. Condon. If you don't spend it, please reduce our taxes, 
but if you do, what I am saying is send it to us--
    Mr. Tierney. Well, I can tell you this: we will spend it 
where we think it is going to do some good.
    Mr. Condon. Oh, I know you will.
    Mr. Tierney. But it is interesting to know that if you have 
money sitting around, I would like to hope that you might argue 
that people would apply it someplace where you are having a 
problem taking the Federal grants.
    Mr. Condon. But, tell me, with the block grants--
    Mr. Tierney. I am going to keep asking the questions, 
because I have limited time, and we do have to vote.
    Are any of you gentleman advocating that guns in schools 
are a good thing?
    Mr. Walker. No, sir.
    Mr. Greenberg. Absolutely not.
    Mr. Tierney. Why is that, if I can ask the Chief?
    Mr. Greenberg. Well, there is no legitimate function for 
guns in the education environment--in secondary schools or 
other schools. A place where alcohol is a chief item for sale, 
or a school or someplace like that, then guns should not be in 
the hands of anybody. You might have an ROTC Program where 
people have rifles that have been deactivated for ceremonial-
type purposes and flag presentations and that type of thing, 
but other than simply the shape of some of those types of 
weapons there is no reason why anybody should have a gun. No 
student, no teacher, principal, or anybody else should have a 
firearm in any kind of school environment.
    Mr. Tierney. Mr. Walker, do you have a comment on that, 
what the danger of having guns in schools is?
    Mr. Walker. Well, obviously, guns are dangerous 
instruments. We don't have them in our schools; we don't bring 
them into our courtrooms; I doubt if you allow them in here.
    Mr. Tierney. But we do allow them in our homes, I guess, is 
that it?
    Mr. Walker. We do.
    Mr. Tierney. I don't have any other questions.
    Mr. Condon. There is one exception, of course, with the 
school resource officers. Columbine wished they had a heavier 
gun--the officer that was there.
    Mr. Tierney. Thank you.
    Mr. Mica. I thank the gentleman.
    We are going to recess until 2 o'clock. We have three 
votes, which will take a series of time. That will give folks 
an opportunity to refresh, get a bite to eat, and we will 
reconvene at 2 o'clock.
    [Recess.]
    Mr. Mica. I would like to call the Committee on Criminal 
Justice, Drug Policy, and Human Resources back to order.
    I appreciate your patience. The votes lasted a little bit 
longer than we expected and we hope to have some members join 
us, but we do want to continue with our third panel.
    Our third panel today consists of school administrators, 
teachers and a representative of a school counseling 
association. So, we would like to welcome those panelists.
    Those panelists are, first of all, Ms. Jan Gallagher, 
president elect of the American School Counselors Association; 
Mr. Bill Hall, superintendent of the Volusia County Public 
Schools in Florida; Dr. Gary M. Fields, superintendent of the 
Zion-Benton Township High School in Illinois, and then Mr. 
Clarence Cain, teacher with Crisis, a Resource Program in Maury 
Elementary School in Alexandria, VA, and I think you have two 
assistants with you. Would you introduce those individuals, 
please, for the subcommittee?
    Mr. Cain. Yes, sir. On my immediate left, this is Anthony 
Snead and then Jeffrey Schurott. They are officers of the BRAG 
Corps at George Mason Elementary.
    Mr. Mica. And are they going to testify, too?
    Mr. Cain. They are prepared to do so.
    Mr. Mica. OK, well, we are going to have to swear them in 
and the whole panel in. As you have seen, this is an 
investigation and oversight subcommittee of Congress, and we 
do--to the young men, we do administer an oath, and you have to 
tell the truth before this panel of Congress and affirm it in 
public here.
    But I would like to welcome all of our panelists, and when 
we do testify, we will try to limit our time to 5 minutes, and 
you can--as I informed the other panels--submit additional 
lengthy testimony or background information for the record.
    If you would please stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Mica. All of our witnesses answered in the affirmative, 
and again I would like to welcome each of you and first 
recognize Ms. Jan Gallagher, president elect of the American 
School Counselor Association. Welcome, and you are recognized.

 STATEMENTS OF JAN GALLAGHER, PRESIDENT ELECT, AMERICAN SCHOOL 
   COUNSELOR ASSOCIATION; BILL HALL, SUPERINTENDENT, VOLUSIA 
 COUNTY SCHOOLS, FLORIDA; GARY M. FIELDS, SUPERINTENDENT, ZION-
BENTON TOWNSHIP HIGH SCHOOL, ILLINOIS; CLARENCE CAIN, TEACHER, 
  CRISIS RESOURCE, MAURY ELEMENTARY, ALEXANDRIA, VA; ANTHONY 
SNEAD, OFFICER, BRAG CORPS, GEORGE MASON ELEMENTARY SCHOOL; AND 
JEFFREY SCHUROTT, OFFICER, BRAG CORPS, GEORGE MASON ELEMENTARY 
                             SCHOOL

    Ms. Gallagher. Good morning. I am Jan Gallagher, president 
elect of the American School Counselor Association, and I ask 
that my testimony be placed in the record.
    Mr. Mica. Without objection, the entire statement will be 
made part of the record.
    Ms. Gallagher. First, let me say that all students have a 
fundamental and immutable right to attend school without the 
fear or threat of violence, weapons, or gangs.
    My opening statement is the official position of our 
association, which represents the 90,000 professional school 
counselors across the Nation. I firmly believe that we must 
make our schools safe. I have 35 years of experience in an 
urban, low socio-economic, minority school district in San 
Antonio, TX in which we had to deal with violence, weapons, and 
gangs. I know that there are ways to prevent or lessen violence 
in our schools.
    Example--I was trained in 1993 by the Department of Justice 
in gang preventions and interventions, and, as a result of that 
training, we put into place an early identification procedure 
for parents and teachers to help recognize the warning signs of 
troubled youth.
    Five years ago, we established in our school district, a 
mandatory 16-hour family counseling program for students who 
were suspended or expelled from school. This program was for 
them and their families, and over 700 families, to date, have 
been served. As a result of this program, we have had no repeat 
offenders. District drop out rates have been reduced; incidents 
of violence have been severely curbed; and I have written a 
crisis manual that has been used as a model in other school 
districts in Texas. I guess you could say that I know violence 
up close and personal; and I know that there are ways to combat 
it.
    Safe schools are essential to an efficient and effective 
learning environment and necessary for our quality schools. If 
there is a threat to safety--when there is a threat to this 
safety due to the rapid increase of violence, weapons in 
schools, and gangs in our schools--then we need to provide a 
safe school environment recognized by parents, students, staff, 
administrators and other school personnel, legislators, and the 
community-at-large.
    Reactions to increased violence that you have seen in the 
past few weeks have been strong. The cry is loud and clear--the 
situations must be prevented and schools must be the safe, 
peaceful environments they were intended to be. I can think of 
no better trained or skilled group to assist and to be part of 
this prevention program in violence than school counselors. 
School counselors have the same Master's level degree program 
for training as mental health counselors in community agencies 
as well as having specialized courses on human development. We 
know and we believe that early identification and intervention 
for troubled youth is essential.
    We also know that there are things that can be done in the 
classroom. For example, ASCA, the American School Counselor 
Association, has partnered with State Farm Insurance and the 
National Association for Elementary School Principals to 
produce ``Creative Differences.'' This is a program that helps 
young students to understand and manage emotions, develop basic 
social skills and emotional tools for appropriated responses, 
and to learn and practice productive and peaceful strategies 
for dealing with conflict. It allows them to build a community 
within their classroom, and through the generosity of State 
Farm, this is free to any elementary school. Elementary school 
counselors team with classroom teachers to help all young 
people deal with anger and frustration appropriately. Some 
students will be identified as needing more help in controlling 
their anger; and by working with parents, this can be done in 
small group counseling sessions or in individual counseling. 
Professional school counselors have the knowledge and the 
skills to implement this program.
    Of course, it would be a great world--it would be 
wonderful--if all the children developed these skills in 
elementary school. However, we all know that the lessons of 
life are repeated at each developmental stage, and as children 
enter adolescence, they turn to their peers for acceptance and 
support. An efficient strategy often used by middle counselors 
at the middle school level is the training of peer mediators. 
This is a proven, effective program to help diffuse potentially 
violent situations. Peer mediators are trained to recognize 
situations which need to be referred to counselors. High 
schools often continue peer mediation programs that began at 
the middle school level, but they add programs, such as peer 
assistance leadership. All of these, as Mr. Cummings spoke 
about, are programs that need to be highlighted and to be 
recognized as successful intervention strategies.
    Today, we are here to question and examine the problem of 
violence in our schools. We are here to seek solutions, and the 
solutions aren't a quick fix, but are solid developmental 
strategies that should have a lasting effect. Realistically, 
there will be students who get into trouble and who need 
additional help. Professional school counselors working as team 
members with students, teachers, parents, administrators, other 
support personnel, and school communities are the people who 
can do this. They are in-school staff members who have the 
skills and training to assist in prevention and intervention; 
and they do this through developmental comprehensive counseling 
programs, which are designed to meet the needs of all students 
so that they can peacefully and successfully meet the 
challenges in our society.
    The problem is this: the national ratio of school 
counselors to students is 1 counselor to 513 students, and that 
is lucky in some places. This is more than twice the 
recommended ratio of 1 to 250. There are many elementary 
schools that have no counselors. Some elementary counselors 
serve as many as five schools and thousands of students. 
Secondary counselors are burdened often with administrative 
tasks, such as scheduling and achievement test administration. 
We need more school counselors, and we need to ensure that they 
are providing direct services to students and not being used in 
other ways.
    Where will these counselors come from? Well, many of them 
are right now in your classrooms teaching. They were cut from 
school budgets as counselors, and some are there because there 
were no counseling positions. Some are there because there is 
no economic advantage to becoming a counselor. Certified school 
counselors who have not been practicing will need staff 
development to upgrade their skills. To meet the national 
demand, we will have to provide training. There will need to be 
incentives to lure college graduates into counselor preparation 
programs, particularly minorities. We need to look for model 
programs that are successful, and we need to replicate those, 
and we have to start now, because we can't wait for another 
Paducah, Jonesboro, Springfield, Littleton, or Atlanta. The 
next tragedy may be in your hometown.
    [The prepared statement of Ms. Gallagher follows:]
    [GRAPHIC] [TIFF OMITTED] T3843.058
    
    [GRAPHIC] [TIFF OMITTED] T3843.059
    
    [GRAPHIC] [TIFF OMITTED] T3843.060
    
    [GRAPHIC] [TIFF OMITTED] T3843.061
    
    [GRAPHIC] [TIFF OMITTED] T3843.062
    
    [GRAPHIC] [TIFF OMITTED] T3843.063
    
    Mr. Mica. Thank you for your testimony.
    Our next witness is Bill Hall who is the superintendent of 
schools in Volusia County, FL. I would like to, if I can, 
Superintendent Hall, go ahead and play the tape from Volusia 
County. I think we have a tape that we wanted to play.
    [Videotape was played as follows:]

    Every day, parents rely on school buses to take their 
children to and from school, but what should a safe ride be? It 
is now a violent fighting ground for many kids. Of course, the 
most important issue facing our school systems is a quality 
education.
    But the challenge now seems to extend beyond the classroom 
and onto our roads and highways. Sterling Scott joins us now 
with a special report. Sterling.
    Tonight, we are going to show you a new side of life at 
school, a side that many of us have never seen before. For the 
past 2 months, News Center 6 has been investigating violence on 
school buses. It is a dangerous situation that not only 
endangers the students but everyone on the roads and the 
passengers, as well.
    These yellow buses have been safely taking kids to and from 
school for years, but for some students, the journey has become 
trips of terror. Class was over for the day, but one student 
still had another lesson to teach.
    Shane's story: ``He grabbed me by my throat and slammed me 
into a seat right next to him, and then he grabbed me out of 
the seat and threw me onto the floor and just starting thumping 
on me and throwing my head against the floor.''
    Shane says the bus driver didn't even try to stop the 
beating. ``I don't know why. She just pulled over to the side 
and didn't say anything.''
    Shane's family believes the attack didn't have to happen. 
The boy who beat Shane was suspended earlier in the day for a 
previous bus incident and had threatened Shane, but Silverson 
School officials sent the fifth grader home on the same bus. 
Shane suffered permanent brain damage. Now, his father is suing 
the school board for negligence.
    ``You know, when I was a kid, I got picked on in school 
too, and I had the little scuffles and whatever, but what has 
happened here is total brutality.''
    This is a typical example of a Volusia County school bus. 
You can see mounted on the ceiling a camera which records all 
of the activity which takes place inside, and down below, a 
locked metal box contains a recorder which turns on 
automatically when the school bus is cranked.
    As police and EMS arrived, the bus system recorded yet 
another driver's pleas for help as fights broke out on her bus.
    Former bus drivers and educators in central Florida say bus 
violence is growing as fast as our population. We investigated 
further and found out that what happened to Shane was not an 
isolated incident.
    Kimberly and her brother say they were repeatedly attacked 
on the bus. They say the driver ignored the violence, and they 
watched as she turned the bus camera off. ``I was getting on 
the bus. He came into the seat in front of me and started 
pushing me.''
    ``So, the bus driver didn't do anything to try to stop 
everything that was going on?''
    ``No, she said she did, but she didn't.''
    Kimberly's mother pleaded for help with school officials, 
but the attacks continued leaving her with one option. ``I took 
my kids off the school bus 2 months out of the last school year 
and just had to, basically, carpool them back and forth just to 
protect them.''
    Now, Kimberly is out of the public system and is being 
home-schooled.
    ``I should be able to send my kids to school, and they 
should be able to come home without being afraid of just simply 
riding a school bus.''
    School board officials agree. ``We do not want to have that 
type of behavior on our buses.'' That is Volusia County 
School's deputy superintendent, Tim Hewitt.
    This is a situation that not only concerned the students 
and passengers on the bus but everyone that shares the road as 
well, and while most bus drivers work to maintain control are 
dangerous situations unavoidable? We will have more at 11. Live 
in Volusia County, Sterling Scott, News Center 6.

    [End of videotape.]
    Mr. Mica. That is a quite remarkable piece I hadn't seen 
before, but I would like to again introduce the school 
superintendent from one of the counties that I represent, Bill 
Hall. You are recognized, sir.
    Mr. Hall. Thank you, Chairman Mica. It is an honor and a 
privilege to be here to address this subcommittee.
    First, let me address the tape that the audience and you 
have just seen. We are not proud of those incidents, obviously, 
and we try everything that we can to avoid them. For example, 
all of our school buses--and there are 300 plus school buses--
have video cameras on them. Next year, we plan to add bus 
assistants to every single bus.
    In this particular situation, there is more to the story 
than what has been told. However, we are under a lawsuit, I 
have to be careful what I say, so I am not going to say much 
more than this: that incident could have been avoided if a 
different decision had been made somewhere along the line not 
to let that student ride that bus. That was a judgment call on 
the part of school officials. It is one that I have made before 
as a former high school principal. When you think you have 
things worked out. They are worked out with counselors 
involved, others involved, but it turned out to be a nasty 
situation, and it is one that we are not proud of.
    Having said that, let me talk about violence in our 
schools. I have a written statement that I would like to be 
entered into the record and also my verbal comments.
    Mr. Mica. Without objection, the entire statement will be 
made part of the record.
    Mr. Hall. Thank you, Chairman Mica. Much has been said and 
written in light of the tragic events of past weeks. I will 
therefore keep my comments brief and share with you only what I 
consider to be the essential elements for school safety being 
employed by the Volusia County School District, in the State of 
Florida.
    This fall, the Volusia County School District will open 
with approximately 60,000 students in 67 schools with over 
8,000 employees. Although I feel that our schools are among the 
safest places to be on a day-to-day basis, no school, public or 
private, in America has been left untouched by the recent 
tragedy in Colorado. We have seen the effects on our students, 
teachers, parents, and community. This event, coupled with 
other sudden acts of violence across our country, remind us 
that no community can be complacent in its efforts to make 
schools safer.
    Schools should be a safe haven free of violence and 
aggression for students and teachers. Schools have an 
obligation to teach and assist in developing responsible 
adults. To do so, students and teachers must be provided a 
climate for learning, one free of the fear of bullets and 
bombs. I propose to you this can only be accomplished with 
considerable effort and support from parents and our 
communities. Our approach must be multi-faceted, focusing on 
enhanced security and discipline. Without increasing our 
ability to identify and support troubled and disconnected 
youth, ignores our ability as adults to influence our children 
and to make a change in their behavior. This is not to say that 
there is no need for increased discipline and security. I am 
sure that the school districts across the Nation are 
reassessing their preparedness for violent acts as we are in 
Volusia County.
    The Volusia County School District is currently involved in 
a district-wide safety and security certification process in 
order to ensure that each of the schools maintain a high level 
of security. In this process, schools are required to meet a 
set of standards divided into five categories covering student 
and staff protection and emergency situations. These standards 
were developed by the district's safety committee in concert 
with the Volusia County Sheriff's Department.
    Compliance with certification is a three-step process. 
Schools must have a written procedure which adequately 
addresses the security standards. The appropriate staff must 
know the procedures, and the school must be observed being in 
compliance with those procedures. The process establishes a 
strong foundation on which individual schools can build a safe 
and secure environment. Certification of compliance with the 
safety standards begins this fall for all Volusia County 
schools, and, as a matter of fact, has already begun.
    In developing security plans, it becomes obvious that 
schools require a close working relationship with law 
enforcement agencies. To further build on those relationships, 
our district staff participates in a statewide security 
organization. They also maintain weekly meetings with 
supervisor personnel for the School Resource Officer Program--
and, by the way, we have school resource officers in every 
middle and every high school in this country; that is 21 SROs 
in our school system. In these meetings, personnel assess the 
risk individual students may pose as well as systemic issues.
    Regarding school safety, there are issues with which 
Congress can assist local school districts. Districts need 
greater flexibility regarding the Individuals with Disabilities 
Education Act, or commonly known as IDEA. Currently, we have 
two separate systems of discipline for those who would disrupt 
and threaten a safe and orderly school environment. Students 
receiving special education services pose no less a threat than 
any other student when they demonstrate dangerous or disruptive 
behaviors. Where a non-special education student can be 
expelled for serious misconduct, consequences for special 
education students are greatly restricted, even when weapons 
are involved.
    Although, technically, a special education student can be 
expelled, districts cannot cease special education and related 
services as defined by the student's Individual Education Plan. 
The cost and method of the individual delivery of such services 
prohibit many districts from removing special education 
students who have committed serious threats to school safety.
    And I am aware that Congress is dealing with this issue as 
I speak, and there will be a vote on it at sometime in the 
future, and I do not want to place special education in a 
different category or say that it is something less than 
normal. I taught in special education for 2 years at the 
beginning of my career, and I have a special place in my heart 
for those students. However, we cannot have two separate 
discipline systems, and that is what has currently happened in 
every public school district across the Nation.
    Safe schools must also have and use a full array of 
appropriate support services for students with special learning 
and emotional needs. These should be available in all schools 
and must be supplemented with services from other agencies, 
including mental health, child welfare, juvenile justice, and 
local law enforcement. I cannot stress enough, the community 
and the family must be partners in creating and maintaining 
safe schools.
    Predicting a violent act is extremely difficult due to 
complex human variables. However, research has shown us that 
interventions are most effective when made early on and applied 
in a consistent manner. A number of professionals and 
publications have identified early warning signs for troubled 
youth. Recognizing these signs in our students is not a 
difficult task. However, most schools are not equipped to 
provide complex interventions. These interventions are 
particularly important when parents or guardians appear 
unconcerned with a child's behavior or risk indicators. 
Therefore, communities must come together to form coalitions to 
attack the problem of school violence.
    In Volusia County, we are inviting community agencies and 
professionals, community leaders, and other interested citizens 
to meet with us to readdress and enhance our violence 
prevention plan. In our violence prevention plan, we continue 
to reflect the needs of teachers, students, families, and the 
community. The plan will continue to outline how our schools' 
faculty will recognize the behavioral and emotional signs that 
indicate a student is in trouble and what steps will be taken 
to assist the student. Our goal is to have improved access to a 
team of specialists trained in evaluating serious behavioral 
and academic concerns available to all schools. A tracking 
mechanism must be in place to monitor the student's progress 
and to assure availability and followup for all identified 
interventions. Classroom teachers will have the ability to 
consult with team members when they have a concern about a 
particular student.
    Equally important, students must play an active role in the 
school's violence prevention program. We must break the code of 
silence which too often exists in our schools. Students should 
feel a sense of responsibility to inform someone if they become 
aware of another student who may carry out a violent act. They 
should not feel as if they are telling on someone but rather as 
if they have the responsibility to save others from injury or 
harm. Volusia County has recently expanded its confidential 
telephone reporting system in conjunction with the Sheriff's 
Department and the community. Our students must be encouraged 
to seek assistance from parents or other trusted adults if they 
are experiencing intense feelings of anger, fear, anxiety, or 
depression. Appropriate behavior and respect for others must be 
emphasized at all times by all staff members.
    In closing, safe schools are places where there is strong 
leadership, a caring faculty, student and parent participation, 
and community involvement. With the absence of any one of these 
elements, we increase the odds for school violence. Keeping our 
children safe is a community-wide effort. Our common goal must 
be to create and preserve an environment where students truly 
feel part of our schools and of the greater community. 
Additional resources and not realigned resources must be made 
available to achieve our goals. We must try to keep students 
engaged and to reconnect with
those who feel isolated and distressed. This responsibility 
must be assumed by all of us. Solutions to school violence 
cannot solely rest with our schools. It is a societal problem.
    Thank you.
    [The prepared statement of Mr. Hall follows:]
    [GRAPHIC] [TIFF OMITTED] T3843.064
    
    [GRAPHIC] [TIFF OMITTED] T3843.065
    
    [GRAPHIC] [TIFF OMITTED] T3843.066
    
    [GRAPHIC] [TIFF OMITTED] T3843.067
    
    Mr. Mica. Thank you for your testimony.
    I am pleased now to recognize Dr. Gary M. Fields, 
superintendent of Zion-Benton Township High School in Illinois. 
Welcome.
    Dr. Fields. Thank you. I also have submitted a 
comprehensive paper.
    Mr. Mica. Without objection, that will be made part of the 
record.
    Dr. Fields. My comments will be different from that paper.
    I would like to tell you a story about a high school of 
2,100 students north of Chicago that was troubled; 5 years ago, 
we began a journey; 5 years ago, that journey was directed 
toward the basic mission of our school being safe, drug free 
with a discipline environment conducive to learning. That was 
our foundation for our academic improvement plan.
    On April 21, I received telephone calls from three school 
board members. All three of them said, ``Thank you.'' All three 
of them said, ``I didn't agree we needed a full-time school 
resource officer. I didn't agree that we needed to bring drug-
sniffing dogs into our high school. I didn't agree we needed a 
full-time safety coordinator, but, now, seeing what is 
happening in the rest of the country, thank you, because the 
plan that we have put in place in our high school has really 
made a difference.''
    I am proud to say that we have not, in our high school of 
2,100 students, made any significant changes since April 20, 
and the reason is, we recognized the issues that we had to 
address 5 years ago. I am speaking to you as a superintendent 
or a high school principal with 30 years of experience in 
Wisconsin, Washington State, and Illinois. Our high school is 
very diverse. We have a number of kids who come from a very 
urban environment; others who come from suburban environments, 
but we are very, very different. And I am also speaking to you 
probably as a little different type of superintendent, because 
my office is right outside of the cafeteria in our high school, 
and in order for me to get out of my office, I have to walk 
through students all day long. The principal and I both have 
our offices in the same building with our 2,100 kids.
    Thirty years ago, as a young high school principal in 
Wisconsin, I began to learn that just about every serious issue 
with high school students involved one common denominator--
drugs. And, as I speak, what we know is that one out of every 
three high school students in this country is compromised by 
some use of a drug; one out of every three. The drug is either 
causing the problem, it is aggravating the problem, or it is 
interfering with the solution.
    And I would say to you also that in 30 years as a principal 
or a superintendent, I have never prayed more; every night and 
every morning and as I speak right now that something won't 
happen in my high school. In fact, if nothing else happened as 
a result of Columbine, it has brought prayer into the public 
schools. My faculty prays every single day.
    During the last 4 years, I have sat through 55 student 
expulsion hearings with our board of education; 45 for 
marijuana offenses. We have a true zero toleration policy, but 
we do not put students on the street. We do force 
accountability. Students are expelled, but they are allowed to 
come back under an Expulsion Abeyance Contract with only a 
portion of the expulsion being served. If it does involve 
drugs--most often marijuana--they must then be drug tested at 
parental expense at least twice a month with the results being 
released to the principal. I can probably tell you that we are 
graduating from high school young people who are drug free as a 
result of this policy, and it has made a difference in their 
lives.
    But there is no one reason for this very difficult, complex 
situation. I personally believe marijuana is a key piece of the 
puzzle, if one takes a look at all the research and all the 
experience. But what we are all about is developing humane 
schools that are safe and drug free.
    And let me talk just briefly about the funding. Our 2,100 
students, this year, are supported by $12 per student of Safe 
and Drug Free Schools money, and next year we have been 
informed that they will be supported by $8 per student of Safe 
and Drug Free Schools money. That is the grant that we have 
written right now, and we use all of that money to support our 
full-time school resource officer. And, so anything else that 
we are doing is a diversion of local taxpayer funds, and, yes, 
I am forced and we are forced to write some competitive grants 
to get some limited dollars, but the amount of time that it 
takes to write those grants is very, very substantial.
    Well, anyway, during the last 5 years, here is what has 
happened in our school. We have had 50 percent less student 
suspensions, 40 percent less fights, 56 percent less agitations 
to fight, 23 percent less tobacco violations, 36 percent less 
alcohol and drug violations, 64 percent less afterschool 
detentions, and 45 percent less in-school detentions. And this 
is because of the plan that we put in place 5 years ago.
    Why have we changed? The No. 1 reason is school board 
policy. We have a very enlightened board. We have a 
superintendent and a principal who absolutely will not 
compromise our commitment to being safe and drug free. Second 
of all, our school improvement plan, the goal of which is 
academic improvement, begins with us being safe and drug free. 
And, as you know, one of our eight national goals is that 
schools would be safe and drug free with a disciplined 
environment conducive to learning. I would suggest to you that 
is the umbrella goal for all of the others; and, in fact, the 
evidence indicates it is the goal we are least succeeding at in 
this country. We put that umbrella over our school improvement 
plan.
    I have heard today that we have to reduce student anonymity 
or school size. Absolutely, this is true. However, I am not 
suggesting every school in the country needs to do this. And, 
by the way, ours is a very comfortable high school. I look 
forward to coming to school every single day. I will take 
anyone through our building at any time, but every student in 
our high school for 2 years and every adult and every visitor 
wears an ID like this. We have not had a student in the last 2 
years run from an adult in our building because of the ID 
policy. When you get on the bus in the school morning, you 
can't get on without your ID. The bus driver knows the students 
from day one. Substitute teachers know the students, and so the 
I.D. policy has really made a difference of eliminating 
anonymity.
    Third, we have a very active student assistance program 
modeled after employee assistance programs. We have had 500 
students in the last 4 years participate in one of our student 
support groups, including anger management. Every one of our 
drug groups has anger management involved, because they are 
inseparable.
    Fifth, our staff. We have a full-time school resource 
officer and full-time safety coordinator and have for 5 years. 
Also, we have had extensive training for every one of our 
faculty members, for example, on gangs, and we put kids on gang 
prevention contracts. If they display any signs or symbols, 
their parents are brought in, and parents and kids sign a 
contract. Yes, we have kids in gangs, but the evidence during 
the school day is non-existent.
    Sixth, we have strong parent and community partnerships. We 
have coalitions. We are into solutions, not blame. We have 50 
members of our communities serving on the Coalition for Healthy 
Communities, of which I am the president. And also we have 
1,100 of our parents join our parent network and have their 
names published in our parent network directory with a 
commitment to communicate knowing where their kids are, what 
they are doing, and who they are with. These partnerships are 
enormous.
    And, I guess, No. 7 or 8--whatever that order is--it 
obviously involves leadership, and we don't need any funds for 
leadership. What we need is enlightened school administrators 
and school board members. We need training programs to convince 
those in leadership positions that there is no compromise. We 
will be safe and drug free; we will keep this message in front 
of our kids, in front our parents, in front of our communities. 
We will speak that issue every single time.
    Finally, we are diverting local resources; there is no 
question about that. That is a concern, but I would leave you 
with a statement that we need to build comprehensive systems, 
because when we put good people in bad systems, the system 
always wins.
    Thank you.
    [The prepared statement of Dr. Fields follows:]
    [GRAPHIC] [TIFF OMITTED] T3843.068
    
    [GRAPHIC] [TIFF OMITTED] T3843.069
    
    [GRAPHIC] [TIFF OMITTED] T3843.070
    
    [GRAPHIC] [TIFF OMITTED] T3843.071
    
    [GRAPHIC] [TIFF OMITTED] T3843.072
    
    [GRAPHIC] [TIFF OMITTED] T3843.073
    
    [GRAPHIC] [TIFF OMITTED] T3843.074
    
    Mr. Mica. Thank you for your testimony.
    And now I would like to recognize Mr. Clarence Cain, a 
teacher with the Crisis Resource Program of Maury Elementary 
School in Alexandria, VA. You are recognized, sir, and you have 
a couple of witnesses with you.
    Mr. Cain. Thank you, sir. I am privileged to be here. I am 
honored to be here.
    My name is Clarence Cain, and I am the crisis resource--one 
of the crisis resource teachers in Alexandria, VA.
    I would like to start with a statement about what am I, 
because that greatly influences whether or not I am effective 
as a crisis resource teacher. Although public education is what 
I do, it is not what I am. I am a Christian. I belong to Jesus 
Christ in attitude and lifestyle. I aim to pattern my steps 
after His. I do what I do as I do because I am joined to Him, 
and I seek to give my time, talent, and treasure for one 
reason: Christ gave His life on behalf of mine.
    And then I would like to state briefly strategies I employ 
on a daily basis. I pray for each child by name that I am 
dealing with, and this is done in my home. And then when I come 
to school, I maintain a calm demeanor and patience regardless 
of the incidents that I face. On a weekly basis, I employ the 
following crisis intervention strategies: small group 
isolation, behavioral journals, parent conferences, incentive 
plans, BRAG Corps--and I have two representatives here of the 
BRAG Corps--prosocial training, student contracts, home visits, 
lost privileges, non-violent restraints, final consequences, 
also rewards.
    I am a Christian who is armed with compassion. I was 
inspired to be a teacher. It was not my plan. I had wanted to 
be a doctor, but my faith helped me to recognize the problem, 
and so I decided to give my time to children within the public 
schools. My greatest impact, however, is not made in the public 
schools; it is made after school and on the weekends where I am 
able to practice my faith as a Christian freely. I have no 
power of my own. The Gospel of Jesus Christ is the power of God 
to purge unrighteousness from the heart of any person or 
people. This is my conviction.
    And then I want to share a story about a group of kids at 
the Fishing School in Northeast Washington that is off the A 
Street corridor. I had a group of children that were involved 
with me in Bible study. Tom Lewis is a retired police officer. 
He is the executive director. He saw me working out in the West 
Virginia wilderness with full love of children. My cabin was 
honored as the best cabin that week. So, he asked me to come 
and lead his program in Northeast Washingotn, DC. I told him 
the same thing, I had no power to change human behavior; that 
the only way I would accept the job is if he allowed me to 
involve his children in Bible study. He agreed. I set the Bible 
in front of these kids 5 days a week, Monday through Friday. At 
first, they left, but then they came back. One particular 
Saturday morning, some of them had come in and wrecked the 
place during a meeting with a potential donor. I asked the 
question: If Jesus had been there, would they have wrecked the 
place? I remember clearly never chastising. I didn't ask them 
to do anything. I returned upstairs, and after the meeting was 
finished, I came down and the place was spotless. A number of 
the kids within the same group a week later confessed Christ as 
their own personal savior. This story, and I have countless 
stories like this one, is really a prelude to the other reason 
why I am here and that is to share in brief detail what I 
believe the role of the Church is in terms of stemming the 
problem of violence or any other form of unrighteousness that 
is in our country.
    I am a member of the Crossroads Baptist Church. To me, it 
is one of the greatest churches in America today. It has 
reproduced itself 11 times, and its ministries and programs are 
comprehensive. I will just name a few: Bible preaching, music, 
teens, prisons, military, death, children's church, child 
development center just to name a few.
    It is my personal view that America has come to a place 
where children of all backgrounds are now at risk. Our country 
is eroding from within; violence and moral corruption are now 
threatening to bring this glorious empire to ruins. Unbelief 
and unrighteousness is effectively doing to America what the 
cold war could not. America's diseased and dying. We are 
experiencing a national crisis. To get well, I believe that 
America needs a large dose of churches like Crossroads Baptist. 
The American people, as any people, need to experience Bible 
salvation.
    Religion and personal faith in Jesus Christ are not one in 
the same, and, with all due respect, religion crucified Christ. 
We do not need more religion. As I follow the news, few can 
argue with me when I say that some of the most violent nations 
in the world are religious. Real change begins within the 
heart. The Book of Proverbs says, ``Out of the heart are the 
issues of life.''
    Today, American television is the mirror of our unrighteous 
indulgences as a society. Sin is still a reproach today. A 
white gown, fancy suit, college diploma, or fat bank account is 
no match for an unregenerate heart. Covetousness and evil 
desire threatens the very soul of this Nation, its people. 
Under Heaven, there is only one element I know of that 
personally cleanses the heart of man--the blood of Jesus.
    We, the people of the United States of America, desperately 
need the blood of Jesus applied to each of our individual 
accounts. If that happens, our homes and our schools will 
change for the better. I am a living witness--early Americans 
knew it too. Remember the Bible schools of old? I believe a 
quality King James version education is still the greatest 
heritage we could give our children.
    As a Nation, America stands to be blessed, as well. The 
Bible says, ``Blessed is the Nation whose God is the Lord.'' 
That is the view that I believe--a prominent view that I 
believe the Church can play. I think that it has to be taken 
seriously what the Church and its influence can be on a family. 
Most of the problems that I experience in school have most to 
do with faith, have most to do with lack of values, has most to 
do with poor family structure, and there is only one person I 
know of who can influence that for the better, and that is my 
Savior, Jesus Christ.
    [The prepared statement of Mr. Cain follows:]
    [GRAPHIC] [TIFF OMITTED] T3843.075
    
    [GRAPHIC] [TIFF OMITTED] T3843.076
    
    [GRAPHIC] [TIFF OMITTED] T3843.077
    
    [GRAPHIC] [TIFF OMITTED] T3843.078
    
    Mr. Mica. Thank you for your testimony. Did these young men 
want to comment?
    Mr. Cain. They are prepared to respond to any direct 
questions you might have, and then they want to do a 
demonstration, as well.
    Mr. Mica. We will ask some questions as we proceed here.
    Mr. Cain. OK.
    Mr. Mica. We do want to keep the panel moving, and we are 
running behind schedule. I appreciate everyone's testimony 
today.
    We have heard a number of recommendations here today, and I 
think that Superintendent Hall commented on the different 
standards that we have in schools with the IDEA Program, 
special education students. You described two systems of 
discipline make it difficult to operate. I would imagine you 
are a strong advocate of some congressional change to these 
requirements. Is that correct?
    Mr. Hall. Yes, I am.
    Mr. Mica. And, specifically, how would we deal with this 
and still serve the needs of our special education students?
    Mr. Hall. Well, Chairman Mica, as I said, disruptive 
behavior is disruptive behavior. Currently, the law allows me 
to expel a student or suspend a student, a special ed student, 
for up to 45 days if they carry a weapon to school. I think the 
new legislation would allow me to expel that student for much 
longer than that. If you and I were regular students and we 
carried a weapon to school, we would be suspended in the State 
of Florida for up to 1 full school year after the incident. 
That is not happening with special ed students.
    Now, I don't want to dwell on special ed students, because 
they make up only about 10 percent of our student population, 
but the amount of problems that we have, particularly with 
emotionally handicapped students and severely emotionally 
handicapped students, puts us into a double-tiered discipline 
system.
    Mr. Mica. Well, you said they only account for about 10 
percent of our students, but what percentage of the problems 
are you seeing in the school system that they account for?
    Mr. Hall. Approximately 40 percent.
    Mr. Mica. About 40 percent. So you think you need a little 
bit more discretion and flexibility as far as imposing 
punishment and restrictions on them?
    Mr. Hall. Yes, sir.
    Mr. Mica. We have another superintendent, Mr.--I am sorry, 
Dr. Fields, what is your opinion on this?
    Dr. Fields. I think we need more local autonomy. I was a 
director of special education for 2 years, and so I also have 
some background in that. And my recommendation would be that 
local school boards are charged with the responsibility of 
doing what is best for children, and when we are dealing with 
youngsters with severe behavioral manifestations, special 
education students, that local boards should have the autonomy 
to determine what is best for their own community.
    Mr. Mica. Thank you. I think you also commented about some 
problems with funding limits and the hoops that you go through 
to apply for funds. You think we could administer Federal 
funding of these programs in some more efficient manner, and 
what would you recommend?
    Dr. Fields. Well, No. 1, there need to be more. The second 
part of the problem is how it comes to us from the States, and 
I know every State is different; the requirements are 
different. But the fact of the matter is, as I said, $12 per 
students this year for Safe and Drug Free Schools money in our 
particular case. We don't spend any money on magic programs, 
and the kinds of statements that I heard this morning in terms 
of some of these kinds of things, I don't know anyone near us 
that spends money on those kinds of things.
    The fact of the matter is, we need to have programs to 
intervene with students who have drug problems--and I mentioned 
the marijuana issue. It is so significant. If one really looks 
at marijuana and sat through 45 school board hearings, as I 
have, and sees the behavioral manifestations of those students, 
the dollars that we need, we shouldn't be forced, necessarily, 
to compete for, and if there are going to be dollars, they 
should be more entitlement dollars coming to us, and, again, 
there needs to be flexibility with those dollars.
    But the grants and writing for those grants--and I looked 
at the booklet over here and the June 1 deadline, we simply 
don't have grant writers. Big districts can afford to hire 
grant writers to write those programs. We have got 2,100 high 
school kids, and if I don't write the grant, no one does. So, 
it is a difficult issue.
    Mr. Mica. Thank you. And we have our two youngest 
witnesses, Jeffrey and Anthony. Can you quickly demonstrate for 
the subcommittee how your BRAG Program disciplines students? 
They have been waiting 5 hours to do this. [Laughter.]
    We should give them both a medal.
    [Demonstration.]
    [Applause.]
    Mr. Mica. Thank you. Thank you, gentleman, for showing us 
what you do in your program.
    Maybe, briefly, Mr. Cain, you could just tell us the 
purpose of that exercise?
    Mr. Cain. The drill teams or the BRAG Corps is an acronym 
for Behavior, Respect, Attitude, and Grades. It is basically an 
afterschool club that works in conjunction with the classroom 
to help modify student behaviors if necessary. It actually 
originated in the District, in Washington, DC. It used to be--
it is called in DC, the Gentleman's Club, and it is basically a 
club for black boys who cause problems in schools, and there is 
about 15 of them in DC today, and, from what I understand, 
where they exist, discipline problems are reduced by 90 
percent. I started my career in DC and came across a gentleman 
who founded the program. His name is Leslie Newsome, retired as 
of today.
    Mr. Mica. Thank you. I would like to yield now to Mr. Barr, 
the gentleman from Georgia.
    Mr. Barr. Thank you, Mr. Chairman, and I appreciate the 
demonstration, Mr. Cain, as well as the explanation of the 
program. I also appreciate your references to God and Jesus 
Christ, and I appreciate the fact that you are not ashamed to 
say that in your personal life and in your professional life 
and obviously practice it, as well.
    One of the things that hangs on the wall of our office in 
the building right next door is the Ten Commandments. There is 
no ode to wiccan. There is no statement of secular humanism or 
other of the movements that seem to be taking hold in our 
society, even on U.S. military bases. Now, the practice of 
witchcraft, wicca, is being allowed as a practice of a 
legitimate religion, under the guise of a legitimate religion, 
and officially sanctioned by our military. I also read that the 
movement called secular humanism, which also is an anti-God 
movement, is putting on a new face to make itself more 
presentable to young people on campuses and high schools. And 
these sorts of things simply illustrate the depth of the 
problem that we face.
    I have never had anybody that has come into our office and 
felt intimidated because the Ten Commandments are there. We 
don't require anybody to pay homage to them. We certainly hope 
that all human beings adhere to them; they obviously don't. But 
it is not an intimidating document, and I am, of course, very 
distressed, as probably a lot of people are, perhaps, including 
some others on this panel, that for the past 38 years we have 
consciously sought to remove any vestige of religion from our 
public schools, and I think that was a very serious mistake, 
but there isn't much that we can do about it these days.
    Just in Georgia, recently, students were denied at a 
graduation ceremony from even referencing God. It wasn't 
anything the school would have sanctioned. It was simply the 
students wanted to do that, and they were denied that 
opportunity. I sometimes think that if we had the Ten 
Commandments on more walls and more schools and public 
buildings, it might cause people to think a little bit more 
about what those things mean.
    So, I appreciate the fact that at least you stepped forward 
and are not ashamed to say that, and you don't require other 
people to adhere to it, but I think by example it has a great 
deal of meaning to others, so I appreciate that very much.
    I also appreciate--I think both Mr. Hall and Dr. Fields, in 
your presentation, you talked about the consistency of the way 
we treat students with the overriding goal being the protection 
of students against acts of violence in our schools. And, it 
seems to me that if we approach the problem of school violence 
from the standpoint that the primary responsibility of our 
schools is to, aside from teaching our children, to protect our 
students and teach them in an environment that is free from 
violence or the threat of violence against the students, that 
that leads us to a number of conclusions, one of which is that 
if students are found to cause acts of violence or to bring 
weapons on school property, the school administrators ought to 
have the power to remove those students and not be able to 
remove only those, for example, that don't claim that bringing 
that weapon on school is a manifestation of a disability or 
something.
    And that gets us into the IDEA Program. I have legislation 
pending that, in so far as the IDEA Program, can and has been 
used as a shield behind which to prevent local school 
administrators from treating a student who claims an IDEA 
disability the same as another student when they bring weapons 
into the schools. It would level the playing field.
    Do you think that this, Mr. Hall--would this be an 
appropriate step? It doesn't say anything about teaching 
students with disabilities. It simply says that there is an 
overarching concern here where you have students that bring 
weapons into the schools, that they ought to be treated the 
same. Whether they claim this was a manifestation of their 
disability or they don't, it poses the same threat to other 
students.
    Mr. Hall. I think that is an appropriate step; yes, sir.
    Mr. Barr. Dr. Fields, would you feel the same way?
    Dr. Fields. Yes, absolutely. I used to use the term 
``common sense,'' and I have learned that there is no such 
thing as common sense. The common sense answer is, if a student 
is dangerous to others, that student cannot be there.
    Mr. Barr. Would it be appropriate to ask our two young 
witnesses a question, Mr. Cain?
    Mr. Cain. Yes, sir.
    Mr. Barr. And you can certainly put it in other words.
    I would like to know--we talked before with the earlier 
panel about children paying attention to what happens in our 
society. Sometimes, I think we operate as if only we know what 
is going on, the adults. But I think students do pay attention, 
and if they see people being treated differently, people not 
being punished, whether it is a high political official, 
somebody at school, a movie star or sports star, children 
notice that. I would be interested in what your two witnesses, 
the two young men that are with you, whether they do pay 
attention to that sort of thing and whether it impacts them?
    Mr. Cain. These are two of my most articulate members. They 
are small and in third grade, but these are the sergeants of 
the BRAG Corps, so they are prepared to speak for themselves, 
if you will ask the question directly.
    Mr. Barr. OK, if you two young men would tell me, if you 
see somebody who has done wrong, who did drugs, for example, or 
committed an act of violence and they are not punished, do you 
think that is wrong? Do you think everybody who does wrong 
ought to be punished the same?
    Mr. Shurott. Yes, I think that they should all be punished 
the same because they all did that.
    Mr. Barr. Do you agree, sir, the other young gentleman?
    Mr. Snead. Yes, I do.
    Mr. Barr. Do you all get good grades?
    Mr. Shurott. Yes.
    Mr. Snead. Yes.
    Mr. Barr. Is that important also, to get good grades?
    Mr. Shurott. Yes.
    Mr. Snead. Yes.
    Mr. Barr. Good. Well, I appreciate then--I know I probably 
can speak for the chairman too--we appreciate you all being 
here very much, and I appreciate all of the witnesses. All of 
these are important--what you all have been talking about are 
very, very important pieces of an overall solution.
    Mr. Cain. Sir, if I may, these are honor students. They 
weren't specific. They are honor students.
    Mr. Barr. Well, I am glad you let us know that. Obviously, 
they don't go around wearing that on their sleeve, and I 
appreciate you telling us that. It makes them even more 
impressive.
    Mr. Mica. Thank you so much for your testimony and 
participation, each and every one. We do try to build a record 
here, and we have a responsibility of oversight and 
investigation of the various Federal programs and how they are 
working, and we take your comments very seriously. So, if we 
have no further questions of this panel, we will dismiss at 
this time and thank you again for being with us.
    Mr. Cain. Thank you.
    Mr. Mica. I would like to call our final panel, and we have 
two witnesses on that panel now. First, we have Mr. Kevin 
Dwyer, president elect of the National Association of School 
Psychologists, and then we have Mr. James Baker, executive 
director of the Institute for Legislative Action of the 
National Rifle Association.
    If we could have our two witnesses please come up and join 
us, and, staff, if you could make certain that we have their 
proper identification.
    Gentleman, as I mentioned before, this is an investigation 
and oversight subcommittee. I apologize for the late hour. We 
did have almost an hour of votes in between. So, we are running 
behind, but I do thank you for being patient.
    If you wouldn't mind, could you please stand and be sworn 
in.
    [Witnesses sworn.]
    Mr. Mica. Again, I want to thank you, and if you have 
lengthy statements or documentation, we would be glad to put 
that in the record. I recognize, first, Mr. Kevin Dwyer, 
president elect of the National Association of School 
Psychologists.

     STATEMENTS OF KEVIN DWYER, PRESIDENT ELECT, NATIONAL 
ASSOCIATION OF SCHOOL PSYCHOLOGISTS; AND JAMES BAKER, EXECUTIVE 
  DIRECTOR, INSTITUTE FOR LEGISLATIVE ACTION, NATIONAL RIFLE 
                          ASSOCIATION

    Mr. Dwyer. Thank you, Mr. Chairman. It is wonderful that 
you are having these hearings and looking for information that 
is sound and based on research.
    My name is Kevin Dwyer. I am a nationally certified school 
psychologist. I am president elect of the National Association 
of School Psychologists, representing the 21,000 members who 
serve in 15,000 school districts, in 85,000 public schools and 
15,000 private schools across the Nation. We also serve in 
overseas and Defense Department schools, as well. We also 
provide services to children in the private schools, 
particularly children who have disabilities.
    School psychologists are highly trained mental health 
behavioral and academic experts in both emotional and 
developmental learning.
    I was a school psychologist for 31 years working in 
schools. I retired in 1993. I worked with about 10,000 
youngsters. I am also the parent of seven children and I have 
eight grandchildren, and so I have a big investment in 
education and the future of education, as well.
    The Federal role in helping communities to make schools 
safer and drug free and more conducive to learning should 
include technical support and resources for local schools to 
ensure that all children are healthy, ready to learn, and able 
to achieve their academic, physical and psycho-social potential 
as citizens in a democratic society. One of the ways to do this 
is through some of the programs that have already been 
discussed here today, and that is full service schools.
    Full service schools, like Jesse Keen Elementary School in 
Lakeland, FL, are examples of how Federal funds have been 
successful in really helping schools locally. Federal funds are 
provided to schools through title I and also through some 
additional funds. In that school, it is demonstrated, with 
teacher and staff training, using theory-based, research-based 
practices, that children could be taught not only to read and 
write and problem solve but also to respect each other and 
respect their teachers.
    Children are taught to think before they act; basically, to 
stop and think--which, by the way, is very hard to do in 
today's society since we teach kids through our media to be 
impulsive. Teaching children to stop and think before they act; 
to solve problems, and these children are held accountable for 
their actions. They are taught to make choices, and they are 
held accountable for their actions when they make bad choices.
    The program has significantly reduced fighting, 
suspensions, costly grade retention, and the program has also 
reduced by almost 90 percent the number of students referred to 
special education, again, reducing costs.
    The Federal role was carried out through legislation that 
supports prevention of behavioral problems through school-wide 
programs, and I think this is one of the things that we have 
heard in testimony a couple of times this morning and from Dr. 
Sherman. Programs that are successful are school-wide programs. 
Programs that are not successful are small programs that are 
attached to schools.
    These coordinated programs are the most cost-effective when 
combined with interventions that focus on those children who 
need intensive help to address their serious emotional 
problems, as was talked about this morning by Dr. Chevez. And, 
by the way, the reality of the situation is that most 
emotionally disabled kids who need emotional and psychological 
help are not getting it. It isn't just that 60 percent aren't 
getting it; most of these kids aren't getting it, and they are 
not getting it intensively enough to make the difference.
    I am also glad that this committee is asking: How do we 
know that programs work? Is there research data or significant 
field testing that proves the results are sustained over time? 
Are the programs family friendly, and are they culturally 
sound? Feel good programs with anecdotal data do not reduce 
violence or classroom disruptions, and this is something that 
really disturbs me. We continue to support programs that may 
make people feel good. They may look good even, but they don't 
necessarily have any results that show a dramatic change. 
Teachers and families, by the way, lose hope when programs 
fail. The longer a poorly treated problem persists, the more 
difficult it is to treat. It is like using a low dose of an 
antibiotic or the wrong antibiotic to fight a serious 
infection. The child's disease becomes more resistant even to a 
good treatment.
    The Federal role should be to ensure that local school 
communities are given the guidance--and this is important in 
terms of the discussion we have had so far in this committee--
to recognize what is an effective program and what is not. Too 
many schools are reacting to the current rash of school 
shootings by buying a slick curriculum or a consultant or 
hardware that they have been told will make their school safe. 
Too much of this commercial material is unproven and 
ineffective. Metal detectors, school uniforms may be good, but 
they are totally unproven. We have no research data that shows 
that they work in reducing school violence.
    Another thing I want to talk about is Medicaid. Medicaid, 
right now, is an available funding source that could provide 
local school systems finances to reduce the burden on local 
taxpayers by equalizing the funding of school-based services to 
children of poverty who could benefit from those services. When 
services are provided early in their natural setting in the 
school, they are shown to be much more effective. The Social 
Security Administration does not see ``the medical necessity'' 
and frequently invalidates the credentials of schools service 
providers. That is something that Congress could deal with and 
I think deal with effectively. I heard you talk about parity, 
which I think is another issue related to funding services.
    The GAO Study in 1995, which was a report to Congress, 
reported what effective programs must look like. They must be 
comprehensive; they must start early; they must have strong 
management; they must use consistent disciplinary codes; they 
must provide teacher training, parent involvement, and 
interagency collaboration. This is the kind of program that 
project Achieve that Jesse Kean Elementary School I mentioned 
in Florida has.
    Last, I would like Congress to think about providing ways 
to curb the exposure to overstimulating media that pushes many 
of our children to thoughts of violence and destruction. I 
believe also that we have a national responsibility that is 
seriously neglected and that is, the access of firearms in 
millions of our homes. Children, particularly those with 
impulsive or emotional problems, who have access to firearms, 
are a clear danger to themselves and others.
    The United States leads the world in homicides and suicides 
of teenagers. Homicide and suicide are the major causes of 
death among adolescents in the United States, and firearms are 
the major weapon for those homicides and suicides. You have a 
98 percent chance of completing a suicide with a firearm and an 
8 percent change of completion when taking pills.
    I think that we need to make certain that we don't allow 
access. I am not saying we do away with guns; I am saying we 
don't allow access of firearms to children. We have to do 
something about that. Access to firearms in the home is a 
primary difference between our country and the other comparable 
countries in the world. It is a difficult issue; it is not an 
easy issue, but it is one that we can't continue to ignore. And 
I am not saying that is the only thing we have
to do. The thing that we really have to do is institute these 
comprehensive programs both in our school and our community. I 
totally agree with the responsibility concepts that have been 
discussed here today.
    [The prepared statement of Mr. Dwyer follows:]
    [GRAPHIC] [TIFF OMITTED] T3843.079
    
    [GRAPHIC] [TIFF OMITTED] T3843.080
    
    [GRAPHIC] [TIFF OMITTED] T3843.081
    
    [GRAPHIC] [TIFF OMITTED] T3843.082
    
    [GRAPHIC] [TIFF OMITTED] T3843.083
    
    [GRAPHIC] [TIFF OMITTED] T3843.084
    
    [GRAPHIC] [TIFF OMITTED] T3843.085
    
    [GRAPHIC] [TIFF OMITTED] T3843.086
    
    [GRAPHIC] [TIFF OMITTED] T3843.087
    
    [GRAPHIC] [TIFF OMITTED] T3843.088
    
    [GRAPHIC] [TIFF OMITTED] T3843.089
    
    [GRAPHIC] [TIFF OMITTED] T3843.090
    
    [GRAPHIC] [TIFF OMITTED] T3843.091
    
    [GRAPHIC] [TIFF OMITTED] T3843.092
    
    [GRAPHIC] [TIFF OMITTED] T3843.093
    
    [GRAPHIC] [TIFF OMITTED] T3843.094
    
    [GRAPHIC] [TIFF OMITTED] T3843.095
    
    [GRAPHIC] [TIFF OMITTED] T3843.096
    
    [GRAPHIC] [TIFF OMITTED] T3843.097
    
    [GRAPHIC] [TIFF OMITTED] T3843.098
    
    [GRAPHIC] [TIFF OMITTED] T3843.099
    
    [GRAPHIC] [TIFF OMITTED] T3843.100
    
    [GRAPHIC] [TIFF OMITTED] T3843.101
    
    [GRAPHIC] [TIFF OMITTED] T3843.102
    
    [GRAPHIC] [TIFF OMITTED] T3843.103
    
    [GRAPHIC] [TIFF OMITTED] T3843.104
    
    [GRAPHIC] [TIFF OMITTED] T3843.105
    
    [GRAPHIC] [TIFF OMITTED] T3843.106
    
    [GRAPHIC] [TIFF OMITTED] T3843.107
    
    [GRAPHIC] [TIFF OMITTED] T3843.108
    
    [GRAPHIC] [TIFF OMITTED] T3843.109
    
    [GRAPHIC] [TIFF OMITTED] T3843.110
    
    [GRAPHIC] [TIFF OMITTED] T3843.111
    
    [GRAPHIC] [TIFF OMITTED] T3843.112
    
    [GRAPHIC] [TIFF OMITTED] T3843.113
    
    Mr. Mica. Thank you, Mr. Dwyer and probably purposely 
timed, although he has had to wait a long time to be on this 
panel, our last witness, Mr. James Baker, who is executive 
director for the Institute of Legislative Action for the 
National Rifle Association. You are welcome, recognized, and 
thank you again for your patience.
    Mr. Baker. Thank you, Mr. Chairman and members of the 
committee. On behalf of our nearly 3 million members and the 
approximately 80 million law-abiding gun owners in this Nation, 
we appreciate the opportunity to testify here today.
    The NRA joins the Nation in expressing our shock, grief and 
sympathy at the tragedy that transpired in Littleton, but we do 
not presume to cast ourselves as the most qualified experts in 
the root causes of juvenile violence. The committee has heard 
from several panels today representing a far broader realm of 
expertise in this particular area.
    And for that reason, my testimony will be very brief, and 
it is a brevity that reflects what we believe is the absence of 
a nexus between second amendment issues and the tragedy that 
transpired Colorado and in other schools across the country.
    For our 128 years of existence, the NRA has been unwavering 
in our consistent condemnation of the misuse of firearms. We 
have already supported legislation that prohibits and severely 
punishes the criminal misuse of firearms. That commitment is 
reflected in one sense by the shear number of laws that were 
already broken by the perpetrators of the terrible attack in 
Littleton, CO. By our estimation, in Littleton, 22 separate 
State and Federal firearms laws and explosive laws were 
violated, and I have included a copy of those statutes with my 
testimony and would like to make those copies part of the 
record.
    Mr. Mica. Without objection, they will be made part of the 
record.
    Mr. Baker. One of those statutes is the Federal Gun Free 
School Zones Act, first passed in 1992 and revised in 1996, 
without objection from the National Rifle Association. As 
recently as last week, we very publicly reiterated our 
commitment to a clear policy of zero tolerance for violations 
of that act. Yet the very same Department of Justice that is 
regularly enlisted by the White House to lobby for restrictions 
on lawful firearms, users, has, in our opinion, been derelict 
in enforcing that law. The administration admits that over 
6,000 juveniles were expelled from school during the 1996-1997 
school year, alone, for violating the clear prohibitions of 
this act. And yet over those past 3 years, the Department of 
Justice has prosecuted only four violators in 1996, five in 
1997, and eight in 1998.
    Evidence of dereliction is present in the prosecution 
record of nearly every other Federal firearms prohibition, as 
well. The administration championed the Youth Handgun Safety 
Act, which banned the juvenile possession of handguns, but the 
Department of Justice has prosecuted only 20 violations of this 
act in the past 3 years. In recent days, the Justice Department 
has attempted to blunt the sting of this revelation by saying 
that such prosecutions are better handled at the State and 
local level. Well, if that is truly the case, Mr. Chairman, 
then why is the administration pushing for more Federal laws 
they clearly have no intention of enforcing?
    The American people understand that laws without teeth 
cannot restrain lawless behavior. We will never know how many 
lives could have been saved over the years if the laws that are 
currently on the books had simply been enforced. We do know 
that further posturing on behalf of passing new restrictions is 
meaningless unless it is matched by a commitment to 
enforcement.
    We urge the committee and the House to refrain from a 
purely political response to the tragedies, such as Littleton, 
and we are encouraged that this committee has taken the time to 
engage in the deliberative process of this hearing. The reflex 
to cast about for a party to blame in the aftermath of any 
tragedy is understandable, but we believe we must not lose site 
of the fundamental precept of American jurisprudence, which is, 
that individuals are responsible for their own actions.
    We stand ready to work with the House throughout this 
legislative process, and, again, Mr. Chairman, thank you very 
much for the opportunity to testify.
    [The prepared statement of Mr. Baker follows:]
    [GRAPHIC] [TIFF OMITTED] T3843.114
    
    [GRAPHIC] [TIFF OMITTED] T3843.115
    
    [GRAPHIC] [TIFF OMITTED] T3843.116
    
    [GRAPHIC] [TIFF OMITTED] T3843.117
    
    [GRAPHIC] [TIFF OMITTED] T3843.118
    
    [GRAPHIC] [TIFF OMITTED] T3843.119
    
    [GRAPHIC] [TIFF OMITTED] T3843.120
    
    Mr. Mica. Thank you. Thank you both for your testimony and 
for your enduring patience this afternoon.
    I was interested to hear Mr. Dwyer say that one of his 
concerns is the access to firearms, particularly among 
behaviorally or emotionally disturbed children. We already have 
some laws that deal with this, and we heard the representative 
from NRA say that those laws aren't being enforced; 6,000 
students expelled and only a handful that they have gone after. 
Is there something missing in the law, Mr. Dwyer, and, Mr. 
Baker, the same question, or is it a question of enforcement?
    Mr. Dwyer. The things that I am talking about--most of the 
youngsters, by the way, that I am thinking of who have used 
weapons, particularly those who use them on themselves, that is 
done in the home, and those are weapons that they just have 
available to them. I believe that in most of those situations 
if those firearms weren't available to them at that time, they 
would still be alive. I have worked with--I have had three 
youngsters--one murdered another youngster; one murdered 
another youngster and then hung himself in jail, and another 
one shot himself with his father's pistol; bought a bullet for 
it, because his father didn't have any ammunition in the home. 
But the reality is that we need to take responsibility. We need 
to work together to take responsibility; to figure out ways to 
make sure that families, if they do have weapons in their 
homes, that they have ways of preventing the youngsters from 
having access to those weapons.
    The other--and I say this to parents all the time--if you 
have an emotionally disturbed child, a depressed child or a 
child with severe attention deficit disorder with impulsivity, 
you should take the guns out of your house for the period of 
time that they are growing up, particularly as they are moving 
through adolescence. It is too dangerous. It is just pure and 
simply too dangerous.
    We need to think a little bit about danger. We lock our 
cars, because we don't want people to take them. We think about 
if there are children around, we don't do things that are going 
to cause them harm. We have laws about lead paint. We have all 
these kinds of rules and regulations. We have got to do 
something about this one, because, frankly, we lead the world, 
accounting for 78 percent of the firearms deaths of children 
and youth out of 26 countries. OK, 78 percent of firearms 
deaths are in the United States even though we only have 38 
percent of the children among those 26 countries. I mean, this 
is something that we have to look at, and we have to work on 
this together, bipartisanly.
    I think this is something that we just need to come up with 
some good ideas, some effective ideas that will prevent these 
deaths from happening. I tell their parents to get the guns out 
of the house if they have troubled children. Put them in a 
safety deposit box until things get better, and I do that as a 
professional, but I think that is one person. We need to have 
some way to publicly communicate this to our Whole Nation.
    Mr. Mica. Mr. Baker, did you want to respond?
    Mr. Baker. Yes, Mr. Chairman. I don't think that there is 
any way that we can legislate responsibility, but I certainly 
agree with Mr. Dwyer to the extent that we need to, through 
education and training, provide for secure storage of firearms. 
We have been an advocate of that since we were formed. From the 
standpoint, with the right to own a firearm, comes the 
responsibility to safely use it, to safely store it. Certainly 
in the context of the home where there are juveniles, they 
ought to be safely stored. We spend millions of dollars a year 
as do the firearms industry in just those types of education 
and safety training programs around the country, and I couldn't 
agree with Mr. Dwyer more that the question of safety in the 
home is one of education, and there is really no way to 
legislate that.
    Mr. Mica. Well, finally, my question about access. Are 
there additional measures that Congress can take relating to 
access or are the laws sufficient in keeping firearms away from 
young people and those at risk?
    Mr. Baker. Well, just a couple of a factual matters. There 
were as many firearms in 1950 per capita as there are now, and 
yet we didn't seem to have the same problems in the 1950's with 
the misuse of firearms that we seem to be experiencing today. 
So, there are clearly factors other than there being firearms. 
There were firearms then and the same numbers per capita as 
there are now. So, there are other factors at play, and I must 
admit that the National Rifle Association and myself, 
personally, are not experts, but you have had a number of very 
qualified and articulate spokesmen for various programs and 
plans. I don't think that the number of firearms out there is 
the answer to the violence or is even a component answer to the 
violence. It goes far beyond that.
    Mr. Dwyer. The violence--excuse me--may I?
    Mr. Mica. Mr. Dwyer.
    Mr. Dwyer. The increase in adolescent and youth violence in 
homicide and suicide, both, has been dramatic in the last 20 
years; a dramatic increase--186 percent increase in homicides; 
and a 300 percent increase in suicide in kids under the age of 
14. It is not that there are more weapons out there; it is what 
people are perceiving as their use. It is what we are teaching 
our kids through a lot of different media and through a lot of 
other different things that firearms solve problems. It is the 
interaction effect. I mean, if you want to research this--I 
don't want to be too technical--but it is the interaction 
effect of all these things together that make--and no offense--
that make guns more dangerous today than they were in 1950. 
That is the issue--they are more dangerous today than they were 
in 1950 when they were in your homes. That is all I can say. I 
mean, that is the truth; that is the reality.
    The other thing that I think--we want to use proven 
practices that work and in schools, we know exactly what works. 
I would like to make sure that my extended testimony is in the 
record, because in there we talk about those programs, and they 
relate to legislation that you and Mr. Barr and others would 
like to support. I think we have--you know, we have ESEA coming 
up, and we have a lot of other legislative proposals coming up. 
If people are going to do things--if we are going to fund 
things on a local level and give the responsibility to the 
local people to have those funds, that is fine, but let us make 
sure that we take our responsibility--you and I take our 
responsibility to make sure that they don't waste that money. 
That is what Dr. Sherman was saying before and what I am most 
worried about. I don't want that money to be wasted. I see the 
failures; I see the pain; I see people die, and I don't want to 
see that happen anymore with my kids or anyone's kids.
    Mr. Mica. Thank you for your testimony.
    I will yield now to the gentleman from Georgia.
    Mr. Barr. Thank you, Mr. Chairman, and at the expense of 
praising you too much and giving you a swelled head, I would 
like to thank you for the entire panels that we have had today, 
including this last one, and I appreciate both the chairman's 
patience as well as the patience of our witnesses. But I have 
appreciated very much the opportunity to listen to the panels 
today and to have the opportunity to read at least most of the 
written testimony.
    One thing that I know, Mr. Baker, you are very, very well 
aware of, because the NRA addresses the issue of consistency of 
prosecutions of crimes involving firearms, and I know that you 
are probably even more aware than I am since this is one of the 
key issues that your job forces you to focus on. The 
inconsistency and lack of--actually, it isn't inconsistency in 
this regard; it is that the administration is consistently not 
prosecuting these cases. But the message that that sends to 
people, and I appreciate your trying to focus attention on 
these sorts of these things.
    So, as a former prosecutor, I know how important not just 
the substantive tools that a prosecutor has available to him or 
her but the message that consistent prosecution sends to the 
public and developing respect for law across the board. So, I 
appreciate your work in this area.
    Mr. Baker. Thank you.
    Mr. Barr. What I would like to do, just one question, Mr. 
Baker. If you could, just very briefly explain the nature of 
some of the educational and law enforcement programs that the 
NRA is involved in, because I know that doesn't get a lot of 
the attention that some of the other work that you all do. But 
I think, particularly in light of the fact that this hearing is 
about children, it might be important, if you could just take a 
minute or so.
    Mr. Baker. Sure, and I would be happy to supply a more 
extensive account of that for the committee, for the record. As 
it says in my title, I am the lobbyist for the association. But 
we have over 400 employees in the building, most of whom are 
dedicated to the safety and training aspects of firearms 
ownership, and that run programs from the grade school level on 
up to adults. And, as I said in one of the chairman's 
questions, firearm ownership is a right as well as a 
responsibility, and the responsibility part of firearm 
ownership deals with safe handling, safe storage, and safe use 
of firearms. We have a gun avoidance program for school age 
children that speaks specifically to, if they see a gun, stop; 
don't touch; tell an adult. And it is entirely and completely a 
gun avoidance program, and we have those sorts of programs that 
are relevant for every age group, as I said, up through adults.
    And, as you mentioned briefly, we train and have trained 
for years law enforcement around the country in safe and 
efficient use of firearms, and while we get a lot of press for 
the lobbying we do and what we talk about relative to 
prosecutions and what you and I have talked about here, what we 
have done for most of our history is education and training, 
and it is what we continue to emphasize from the standpoint of 
where our resources are put. The majority of our resources goes 
to our general operations divisions that deal with education 
training across the country.
    But I can certainly expand on that with a written 
submission.
    Mr. Barr. I would appreciate that. Thank you.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3843.121
    
    [GRAPHIC] [TIFF OMITTED] T3843.122
    
    Mr. Barr. Do we have a vote, Mr. Chairman?
    Mr. Mica. Yes.
    Mr. Barr. So, I have time for just one more question. To 
Mr. Dwyer, I very much appreciate your testimony and your 
expertise in this area.
    It seems to me that as a non-expert in this area as you 
are, just looking at it more as a layperson, there are 
basically two problems that we have. One is to try and identify 
kids that are out there now that are problems or that may snap 
and become a very serious problem, and then the other focus 
ought to be what do we do in the future to avoid those--prevent 
those kids from developing that way?
    Given that we probably will never have the resources to do 
everything to address this problem what would you say are the 
most important things that we can be doing right now to try and 
identify those children that might be--if anything, to identify 
children that might be problems before they--and I don't know 
whether the correct word is ``snap'' or what--like the kids in 
Littleton did before that happens again?
    Mr. Dwyer. We need, Mr. Barr--and I think this is a 
critical issue--we need to find those kids, but we also need to 
treat those kids. In other words, once we find them, we have 
got to do something to make sure that they don't carry out--
they don't become more violent or more aggressive.
    But the thing that we need--and I know this is probably 
unrealistic--but in every school, we need a person with my 
credentials who teachers and parents can come to, and they can 
say--and I am a school psychologist--they can say, ``I am 
worried about what is happening. I see these changes in this 
boy's behavior, this girl's behavior. I am concerned about 
that.'' And then I can----
    Mr. Barr. Excuse me, while you are talking about that, are 
there Federal laws that pose restrictions right now on your 
ability to do that or the ability of parents to come in and 
speak freely and frankly with you?
    Mr. Dwyer. No. The reality of the situation is that there 
just aren't enough persons--there aren't enough school 
psychologists, school counselors, those kinds of persons in 
schools in the United States. I mean, we have 1 school 
psychologist for every 2,300 kids. That is like a teacher 
having 50 or more in a class. Very few high schools have a 
full-time school psychologist.
    Mr. Barr. Is there sort of--and I know it would vary--but 
what sort of costs are we talking about in a school to do that?
    Mr. Dwyer. The salary for a school psychologist is the same 
as the salary for a teacher. So, it is like hiring another 
teacher except that we have an advanced degree, so if you pay 
extra for 60 credits above a Bachelor's degree, that is what 
you would be paying a school psychologist. They don't get any 
more--I didn't make any more money than anybody else when I 
worked in the schools.
    Mr. Barr. And I don't want you to go on the record here 
about your personal situation, but is there sort of an average 
that we are talking about, because, certainly, in terms of 
appropriations and money, that would be a concern?
    Mr. Dwyer. Yes, that is a very good point, and we are--
actually, literally, 2 nights ago, I was made aware that there 
is a research project right now going on to get the average--
what is the average salary, but the average salary in Georgia 
is very different from the average salary in Scarsdale, NY.
    Mr. Barr. It is probably lower in Georgia.
    Mr. Dwyer. Yes, it is, much.
    Mr. Barr. If you could get that to us, I would really like 
to look at that.
    Mr. Dwyer. We will try to get some information to you on 
that, but that may not be ready until August.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3843.123
    
    Mr. Dwyer. But we need teams of people, like you, as a 
parent, that I, as a teacher, if I were a teacher, could go to 
and say, ``I am worried about what I see.''
    And then an other thing that we need that is really 
critical--and it was mentioned by Dr. Sherman in his testimony 
but not in his presentation--was that we need to teach kids 
problem solving skills, to teach kids the skills, to teach 
respect and responsibility. I know it is a parental 
responsibility, but we need to do it in our schools too. If the 
parents aren't doing it, we have got to do it. Thank you.
    Mr. Barr. And I think that ties in, I think, Mr. Baker, 
with what you are saying also--respect, discipline.
    Mr. Baker. Absolutely.
    Mr. Barr. Thank you very much, Mr. Chairman, and thank you, 
Mr. Dwyer and Mr. Baker.
    Mr. Mica. Well, I would like to thank both of our 
panelists. It was the last panel, but, nonetheless, it will be 
part of the record that we are trying to build in order to 
review this whole question of school violence.
    We do appreciate your testimony. We will leave the record 
open for 2 weeks, and, without any other further business to 
come before this subcommittee at this time, this meeting is 
adjourned.
    [Whereupon, at 3:45 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T3843.124

[GRAPHIC] [TIFF OMITTED] T3843.125

[GRAPHIC] [TIFF OMITTED] T3843.126

[GRAPHIC] [TIFF OMITTED] T3843.127

[GRAPHIC] [TIFF OMITTED] T3843.128

[GRAPHIC] [TIFF OMITTED] T3843.129

[GRAPHIC] [TIFF OMITTED] T3843.130

[GRAPHIC] [TIFF OMITTED] T3843.131

                                   - 

</pre></body></html>
